No. 19In the

Supreme Court of the United States
YASMEEN DANIEL, Individually, and as
Special Administrator of the Estate of
Zina Daniel Haughton,
Petitioner,
v.
ARMSLIST, LLC, an Oklahoma Limited
Liability Company, BRIAN MANCINI and
JONATHAN GIBBON,
Respondents.
On Petition for a Writ of Certiorari
to the Supreme Court of Wisconsin

PETITION FOR A WRIT OF CERTIORARI
Jonathan E. Lowy
Brady
840 First Street, NE,
Suite 400
Washington, DC 20002
(202) 870-8100
Patrick O. Dunphy
Brett A. Eckstein
Cannon & Dunphy, S.C.
595 North Barker Road
P.O. Box 1750
Brookfield, WI 53045
(262) 780-7188

Samantha J. K atze
Counsel of Record
Jacqueline C. Wolff
Molly K. Wyler
Manatt, Phelps & Phillips, LLP
7 Times Square
New York, New York 10036
(212) 790-4500
skatze@manatt.com

Counsel for Petitioner
289287

i
QUESTION PRESENTED
Does the Communications Decency Act, 47 U.S.C.
§ 230’s prohibition on treating providers of interactive
computer services as publishers or speakers of thirdparty information posted on their sites, bar states from
imposing civil liability on website owners or operators
for their own design, content and conduct intended to
facilitate and profit from tortious or criminal activity (as
the Wisconsin Supreme Court, the First Circuit, and other
courts have held), or does it bar only those claims that
seek to impose liability on website owners or operators for
third-party posts (like the Washington Supreme Court,
and the Seventh and Ninth Circuits have held)?

ii
PARTIES TO THE PROCEEDING
AND RELATED CASES
Petitioner Yasmeen Daniel, Individually, and as
Special Administrator of the Estate of Zina Daniel
Haughton, was the Plaintiff in the trial court, Appellant
in the Wisconsin Court of Appeals, and the Respondent
in the Wisconsin Supreme Court.
Travelers Indemnity Company of Connecticut, as
Subrogee for Jalisco’s LLC was an Intervening Plaintiff
in the trial court.
Armslist, LLC, Brian Mancini and Jonathan Gibbon
were the Defendants in the trial court, Respondents in
the Wisconsin Court of Appeals, and the Petitioners in
the Wisconsin Supreme Court.
Devin Linn, Broc Elmore, ABC Insurance Co., DEF
Insurance Co., and Special Administrator Jennifer Valenti
on behalf of the Estate of Radcliffe Haughton were
Defendants in the trial court.
Progressive Universal Insurance Company was an
Intervening Defendant in the trial court.
Daniel v. Armslist, LLC et al., Case No. 15-CV-8710,
Wisconsin Circuit Court for Milwaukee County. Order
entered November 28, 2016.
Daniel v. Armslist, LLC et al., Appeal No. 2017AP344,
Court of Appeals of the State of Wisconsin. Decision filed
April 19, 2018.

iii
Daniel v. Armslist, LLC et al., No. 2017AP344,
Supreme Court of Wisconsin. Decision filed April 30, 2019.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING
AND RELATED CASES . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
PETITION FOR A WRIT OF CERTIORARI . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RELEVANT STATUTORY PROVISIONS . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
A.	Facts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
B. Proceedings Below . . . . . . . . . . . . . . . . . . . . . . . . . 4
REASONS FOR GRANTING THE PETITION . . . . . 6
I.

A Uniform Construction Of The CDA In
Accord With Its Text And Congressional
Intent Presents An Important Issue Of
National Concern In Today’s Internet-Driven
Economy  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

v
Table of Contents
Page
A. Many Courts Have Construed The
CDA To Provide Sweeping Immunity
Fo r We b s i t e s ’ O w n Wr o n g f u l
Conduct That Is Wholly At Odds
With The CDA’s Text and Purpose . . . . . . 10
B.	Courts Are Construing The CDA
Contrary To Congressional Intent  . . . . . . 12
II. Review Is Needed To Resolve Sharp
Disagreement Over CDA Protections
Between Federal Courts Of Appeal, As
Well As State Courts Of Last Resort . . . . . . . . 14
A. Courts Disagree Over Whether the
	CDA Creates Immunity  . . . . . . . . . . . . . . . 14
B. Courts Disagree Over What Is An
“Information Content Provider”  . . . . . . . . 15
1.

Cour ts Disag ree O ver W hat
Constitutes “Development” . . . . . . . . . 16

2. Courts Disagree Over Whether
Website Design Is “Content” . . . . . . . . 18
3.

Courts Disagree Over Whether
I n t e n t C a n S u p p o r t C DA
Liability  . . . . . . . . . . . . . . . . . . . . . . . . . 18

vi
Table of Contents
Page
C. Courts Disagree Over What Is Meant
By “Treating” A Website Operator As
The Publisher Of Third Party Content . . . 22
III. Review Is Warranted To Ensure That
This Court’s Federalism Precedent Is
Followed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
A. This Court’s Federalism Precedent
Requires Reading The CDA Narrowly
To Minimize The Degree To Which
Federal Law Overrides State Law  . . . . . . 29
B. The Supreme Court Of Wisconsin
Refused To Apply The Federalism
Principles Mandated By This Court  . . . . . 32
IV. Rev iew Is Wa r rant ed Because T he
Wisconsin Supreme Court’s Interpretation
Of The CDA Creates A “Lawless No
Man’s Land” On The Internet  . . . . . . . . . . . . . . 32
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

vii
TABLE OF APPENDICES
Page
A p pendi x A — decision of t h e
SUPREM E COURT OF W ISCONSIN,
filed April 30, 2019 . . . . . . . . . . . . . . . . . . . . . . . 1a
A p pendi x B — decision of t h e
court of appeals of THE STATE OF
wisconsin, filed april 19, 2018 . . . . . . . . . 43a
Appendix C — oRDER of the CIRCUIT
COURT OF THE STATE of wisconsin
CIVIL DIVISION Milwaukee COUNTY
	FILED NOVEMBER 28, 2016  . . . . . . . . . . . . . . . . 70a
Appendix d — MOTION HEARING OF the
court of appeals of wisconsin
DATED NOVEMBER 1, 2016 . . . . . . . . . . . . . . . . . 73a
Appendix E — 47 USCA § 230 . . . . . . . . . . . . . . . . 98a

viii
TABLE OF CITED AUTHORITIES
Page
Cases
Baker Botts L.L.P. v. ASARCO LLC,
135 S. Ct. 2158 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . 11
Barnes v. Yahoo!, Inc.,
570 F.3d 1096 (9th Cir. 2009) . . . . . . . . . . . . . 15, 26, 28
Ben Ezra, Weinstein & Company, Inc. v.
America Online Inc.,
206 F.3d 980 (10th Cir. 2000) . . . . . . . . . . . . . . . . . . . 23
Bond v. United States,
134 S. Ct. 2077 (2014) . . . . . . . . . . . . . . . . . . . . 8, 30, 31
Chicago Lawyers’ Comm. for Civil Rights Under
Law, Inc. v. Craigslist, Inc.,
519 F.3d 666 (7th Cir. 2008) . . . . . . . . . . . . . . . . . . . . 25
Cipollone v. Liggett Group,
505 U.S. 504 (1992) . . . . . . . . . . . . . . . . . . . . . . 8, 30, 31
City of Chicago v. Stubhub!, Inc.,
624 F.3d 363 (7th Cir. 2010) . . . . . . . . . . .  15, 17, 18, 25
Doe v. Internet Brands, Inc.,
824 F.3d 846 (9th Cir. 2016) . . . . . . . . . . . . . . . . . . . . 26
Erie Ins. Co. v. Amazon.com, Inc.,
925 F.3d 135 (4th Cir. 2019) . . . . . . . . . . . . . . . . . . . . 29

ix
Cited Authorities
Page
Fair Housing Council of San Fernando Valley v.
Roommates.Com, LLC,
521 F.3d 1157 (9th Cir. 2008) . . . . . . . . . . . . . . . passim
F.T.C. v. Accusearch Inc.,
570 F.3d 1187 (10th Cir. 2009) . . . . . . . . . . . . . . .  17, 21
F.T.C. v. Leadclick Media, LLC,
838 F.3d 158 (2d Cir. 2016) . . . . . . . . . . . . . . .  17, 21, 23
Green v. America Online (AOL),
318 F.3d 465 (3rd Cir. 2003) . . . . . . . . . . . . . . . . . . . . 23
Gregory v. Ashcroft,
501 U.S. 452 (1991)  . . . . . . . . . . . . . . . . . . . . . . 8, 30, 31
Hassell v. Bird,
5 Cal. 5th 522 (2018)  . . . . . . . . . . . . . . . . . . . . . . . 23, 24
HomeAway.com, Inc. v. City of Santa Monica,
918 F.3d 676 (9th Cir. 2019)  . . . . . . . . . . . 26, 27, 28, 34
Huon v. Denton,
841 F.3d 733 (7th Cir. 2016) . . . . . . . . . . . . . . . . .  17, 22
J.S. v. Village Voice Media Holdings, LLC,
184 Wash. 2d 95 (2015) . . . . . . . . . . . . . . . . . . . . passim
Jane Doe No. 1 v. Backpage.com,
817 F.3d 12 (1st Cir. 2016) . . . . . . . . . . . . . 19, 20, 22, 25

x
Cited Authorities
Page
Johnson v. Arden,
614 F.3d 785 (8th Cir. 2010)  . . . . . . . . . . . . . . . . .  17, 21
Jones v. Dirty World Entertainment
Recordings LLC,
755 F.3d 398 (6th Cir. 2014) . . . . . . . . . . .  15, 17, 20, 22
Klayman v. Zuckerberg,
753 F.3d 1354 (D.C. Cir. 2014) . . . . . . . . . . . . . . . . . .  17
Lewis v. City of Chicago,
560 U.S. 205 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Marshall’s Locksmith Service Inc. v.
Google, LLC,
925 F.3d 1263 (D.C. Cir. 2019) . . . . . . . . . . . . . . . . . . 19
Medtronic, Inc. v. Lohr,
518 U.S. 470 (1996)  . . . . . . . . . . . . . . . . . . . . . . 8, 30, 31
Nemet Chevrolet, Ltd. v.
Consumeraffairs.com, Inc.,
591 F.3d 250 (4th Cir. 2009) . . . . . . . . . . . . . . . . . 19, 22
Oberdorf v. Amazon.com Inc.,
No. 18-1041, 2019 WL 2849153
(3d Cir. Jul 3, 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
Rice v. Santa Fe Elevator Corp.,
331 U.S. 218 (1947)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

xi
Cited Authorities
Page
Rivers v. Roadway Express, Inc.,
511 U.S. 298 (1994)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Shiamili v. Real Estate Group of New York, Inc.,
17 N.Y.3d 281 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . .  17
United States v. Ulbricht,
31 F. Supp. 3d 540 (S.D.N.Y. 2014) . . . . . . . . . . . . . . . 33
Universal Communication Sys., Inc. v. Lycos,
478 F.3d 413 (1st Cir. 2007)  . . . . . . . . . . . . . . 23, 24, 25
Zeran v. America Online, Inc.,
129 F.3d 327 (4th Cir. 1997) . . . . . . . . . . . . . . 14, 15, 22
Statutes
28 U.S.C. § 1257  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
47 U.S.C. § 230  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Other Authorities
Alina Selyukh, Section 230: A Key Legal Shield For
Facebook, Google Is About To Change NPR (Mar.
21, 2018), available at http://www/npr/org/sections/
alltechconsidered /2018/03/21/591622450/
sect ion-2 3 0 -a -key-lega l- sh ield-for facebook-google-is-about-to-change.  . . . . . . . . . . . . 13

xii
Cited Authorities
Page
Bryan A. Liang & Tim Mackey, Searching for
Safety: Addressing Search Engine, Website, and
Provider Accountability for Illicit Online Drug
Sales, 35 Am. J.L. & Med. 125 (2009) . . . . . . . . . . . . 10
Bu reau of Econ. A na lysis, U. S . Dep’t of
Commerce, Measuring the Digital Economy:
An Update Incorporating Data from the 2018
Comprehensive Update of the Industry Economic
Accounts (Apr. 2019), available at https://
www.bea.gov/system/files/2019-04/digitaleconomy-report-update-april-2019_1.pdf . . . . . . . . . . 9
141 Cong. Rec. H4869-70 (daily ed. Aug. 4, 1995) . . . . . 33
141 Cong. Rec. S8087 (daily ed. June 9, 1995) . . . . . . . . 33
C o n g. R e c o r d Vol u m e 16 4 , Nu m b e r 4 9
(Wednesday, March 21, 2018)  . . . . . . . . . . . . . . . . . . 13
H.R. Rep. No. 104-458, at 194 (1996) . . . . . . . . . . . . . . . 11
Gregory M. Dickinson, Note, An Interpretive
Framework for Narrower Immunity Under
Section 230 of the Communications Decency
Act, Harv. J.L. & Pub. Pol’y 863 (2010) . . . . . . .  33-34
Ron Wyden, Floor Remarks: CDA 230 and
SESTA, Medium (Mar. 21, 2018), available
at http://medium.com/@RonWyden/f loorremarks-cda-230-and-sesta-32355d669a6e . . . . . . . 13

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Yasmeen Daniel, Individually, and as
Special Administrator of the Estate of Zina Daniel
Haughton (collectively, “Petitioner” or “Yasmeen”),
respectfully petitions for a writ of certiorari to review
a final judgment of the Supreme Court of Wisconsin in
this case.
OPINIONS BELOW
The opinion of the Wisconsin Supreme Court is
reported at 386 Wis.2d 449, 926 N.W.2d 710, and is
included in the Appendix (“App.”) A at 1a–42a. The
opinion of the Wisconsin Court of Appeals is reported at
382 Wis.2d 241, 913 N.W.2d 211, and included at App. B
at 43a-69a. The Wisconsin Circuit Court for Milwaukee
County ruled on the motion to dismiss at issue here from
the bench. See App. D at 73a-97a.
JURISDICTION
The Wisconsin Supreme Court entered judgment on
April 30, 2019. This Court has jurisdiction pursuant to
28 U.S.C. § 1257.
RELEVANT STATUTORY PROVISIONS
The relevant statute is the Communications Decency
Act of 1996 (CDA), 47 U.S.C. § 230, which appears in full
at App. E at 98a-104a.

2
STATEMENT OF THE CASE
A. Facts
On October 18, 2012, after years of threats and violent
abuse, Zina Daniel Haughton (“Zina”) obtained a domestic
abuse restraining order against her estranged husband,
Radcliffe Haughton (“Haughton”). App. A at 3a, 32a. The
order, issued by the Milwaukee County Circuit Court to
protect Zina, prohibited Haughton from possessing a
gun, and made him a “prohibited” firearms purchaser
under federal and state criminal laws. Id; App. B at 47a,
51a-52a. But Haughton knew how to easily circumvent the
law and the order. He went on the Internet and visited
Armslist.com. App. A at 4a. Armslist.com is an online gun
marketplace specifically designed to facilitate the illegal
purchase of firearms by people like Haughton, who the law
forbids from buying guns. App. A at 4a-6a. As intended by
Armslist.com’s negligent and intentional design features,
Haughton found a person willing to sell him a gun, Devin
Linn (“Linn”), and quickly and easily obtained a handgun
and three high-capacity magazines in an all cash deal
consummated in a McDonald’s parking lot three days
after the restraining order was issued. App. A at 4a-6a.
The next day, Haughton used the gun he purchased via
Armslist.com to murder Zina and two of her coworkers
and wound four others before killing himself. App. A at
4a, 33a, 35a. Yasmeen Daniel is Zina’s daughter, who was
present when Haughton murdered her mother and was
traumatized by the carnage she witnessed. App. A at 4a.

3
As alleged in the Complaint, Armslist1 entered the
online gun business to cater to the criminal gun market
when companies like eBay and Craigslist stopped allowing
online firearms sales, after recognizing that they were
inconsistent with their obligation to follow federal law.
App. A at 4a-6a, 34a-36a, App. B at 48a-51a. Armslist
intentionally designed its site to facilitate the breaking
and circumvention of gun laws, laws intended to prevent
tragedies like those that killed Yasmeen Daniel’s mother.
Id. Intentionally creating a massive 24/7 online gun
marketplace to supply and profit from gun sales to felons,
domestic violence abusers, and others prohibited by federal
law from buying or possessing guns, Armslist created
and designed features, drafted its own terms posted
on the site and engaged in other conduct specifically to
attract prohibited persons and facilitate illegal sales and
purchases. Id. Armslist did this by, inter alia, precluding
the flagging of illegal sales (while allowing flagging for
other reasons); allowing people to anonymously purchase
guns without a background check; assuring users in
its own posting that it would not check the legality of a
sale; enabling prohibited purchasers to search only for
sellers that did not check criminal backgrounds or keep
records; and enabling sellers to identify themselves as
“private sellers” (who do not check criminal records). Id.
Armslist also affirmatively chose to design its site without
features used by other sites that require users to register
an account and to be transferred guns only by licensed
dealers who submit purchasers to background checks.
App. B at 50a-51a. Armslist’s design features, content it
created, enabled illegal gun buyers to buy guns without
detection, and to evade federal and state laws, including
1. Defendants Armslist, LLC, Jonathan Gibbon and Brian
Mancini are referred to collectively herein as “Armslist.”

4
those requiring background checks, waiting periods, and
restricting interstate and assault weapons sales. App. A at
4a-6a, 34a-36a; App. B at 47a-51a. Armslist is well aware
that its website is a haven for illegal gun buyers and sellers
that has resulted in death, but it has chosen to continue
its anything-goes, guns-for-all (including criminals and
domestic abusers) business model. Id.
B. Proceedings Below
Yasmeen commenced this personal injury and
wrongful death case asserting eleven claims under
Wisconsin tort law, including, inter alia, negligence,
negligence per se – based on the violation of firearms laws
– negligent infliction of emotional distress, civil conspiracy,
aiding and abetting tortious conduct, public nuisance and
wrongful death against Armslist. App. A at 6a. Yasmeen
sought to impose liability on the owners and operators
of Armslist.com for their own negligent and intentional
creation of website features and content to facilitate illegal
gun possession and sales, which foreseeably caused a
person prohibited from buying guns to buy a gun and kill
Yasmeen Daniel’s mother. App. A at 34a-36a; App. B at
45a-52a, 60a-61a. Petitioner pointedly did not claim that
Armslist should be liable for publishing Linn’s ad, or be
treated as a publisher or speaker of information provided
by a third party. App. A at 37a-38a; App. B at 60a-61a,
63a. Indeed, Armslist could be liable even if, after creating
its website, someone else had maintained or owned the
website and published Linn’s ad.
Armslist moved to dismiss for failure to state a claim,
mostly contending that even if it could be liable under
Wisconsin tort law, the Communications Decency Act, 47

5
U.S.C. § 230 (the “CDA”), barred Wisconsin courts from
applying its tort law to grant Yasmeen a remedy. 2 App.
A at 36a. The Milwaukee County Circuit Court granted
Armslist’s motion, holding that because Yasmeen’s claims
were “based on the website design,” the CDA shielded
Armslist, LLC and its owners Jonathan Gibbon and Brian
Mancini from liability for their own conduct. App. D at
84a-96a; App. C at 72a (Order). Yasmeen timely appealed
to the Wisconsin Court of Appeals.
The Wisconsin Court of Appeals reversed. App. B at
45a-46a. The Court held that the claims against Armslist
are not barred because the CDA only protects website
operators from being treated as a publisher or speaker
of another’s content, but does not prohibit liability for the
website’s own design and content or conduct. Id. As the
Wisconsin Court of Appeals explained, “the allegations in
the complaint, which are that Armslist used website design
features to facilitate illegal firearms purchases, do not
seek to hold Armslist liable on a theory prohibited by the
Act.” App. B at 46a. The Court of Appeals held that “the
Act does not protect a website operator from liability that
arises from its own conduct in facilitating user activity, as
is the case here.” Id. Using a plain language interpretation
of the Act and applying federalism principles applicable to
construing federal laws, the Court noted that “Armslist
effectively ignores the Act’s phrase ‘publisher or speaker
of any information provided by another.’” App. B at
45a-46a, 56a-59a, 61a-63a, 67a-68a.
2. The Wisconsin Supreme Court did not address whether
Armslist could be held liable under Wisconsin state tort law
irrespective of the CDA. App. A. The trial court ruled that
Yasmeen did not state a negligence per se claim against Armslist
under Wisconsin law, but the Wisconsin Court of Appeals reversed
and Armslist did not appeal that decision. App. B 45a-46a; App. A.

6
Largely without addressing the rationale of the Court
of Appeals, including not mentioning federalism principles,
the Wisconsin Supreme Court held that, as a matter
of law, the CDA barred Wisconsin courts from holding
Armslist liable for its own conduct and website design
and content it created, regardless of whether Armslist
intended its website to facilitate illegal gun sales. App. A
at 9a-31a. The Court held (1) Yasmeen’s claims “treated”
Armslist as a “publisher” of third party content – that
is, Linn’s ad – because the duty underlying the claims
derived from Armslist’s “role as a publisher of firearm
advertisements;” and (2) Armslist could not be deemed an
“information content provider” because its design features
were “neutral tools” that did not “materially contribute”
to the illegality of Linn’s advertisement. Id.
REASONS FOR GRANTING THE PETITION
The CDA is a critical statute that governs liability on
the Internet, today’s hub of commerce and communications.
By its language, Section 230 would appear to do nothing
to restrict tort liability for creating dangerous website
design or content. Yet, according to the Supreme Court
of Wisconsin, and several federal appeals courts, the CDA
provides sweeping civil immunity. Under this reading
of the CDA, a business (gunsforkillersandkids.com or
illegaldrugs.com, say) that was intentionally created,
designed and marketed to cause and profit from crime
(from terrorism to drug trafficking to gun crimes) cannot
be subjected to civil liability for its wrongful conduct so
long as one of its acts was publication of a third-party post.
But Congress never enacted, or intended, such
immunity. The relevant CDA provision merely states
that: “[n]o provider or user of an interactive computer

7
service shall be treated as the publisher or speaker of
any information provided by another information content
provider.” Id. The CDA was enacted to promote “decency”
on the Internet, mostly by shielding website providers
from liability when they take responsible measures to
prevent access to offensive or detrimental material online.
Nothing in the CDA shields bad actors from liability for
bad acts other than publishing third party information,
such as intentionally or negligently designing a website
with the purpose of facilitating illegal gun sales or
creating their own content intended to facilitate crimes.
The Supreme Court of Wisconsin, and several federal
appellate courts have read the CDA wholly at odds with its
language and intent. According to these courts, the CDA
bars states from subjecting internet providers to liability
for their own conduct, website design and content, even if
they intentionally circumvent laws and facilitate crimes
that states have a strong interest in preventing. It thereby
creates a haven, beyond the reach of state tort law, for
websites that intentionally facilitate and profit from the
most dangerous activities and commerce that take place
in the dark reaches of the Internet.
But other courts, like the Washington Supreme Court,
the Seventh Circuit, and several other federal appellate
courts read the CDA closer to its text, as providing far
more limited protection, or no immunity at all. Thus, the
CDA has been applied in wildly inconsistent ways by
both state and federal courts, resulting in a patchwork of
conflicting decisions and a minefield for Internet providers
and victims of online misconduct who seek civil justice.
The Wisconsin Supreme Court’s overbroad reading of
the CDA is yet another example of confusion regarding
this statute.

8
The decision below is also the latest example of courts
defying this Court’s federalist principles of the “clear
statement rule” and the presumption against preemption.
Precedent such as Bond v. United States, 134 S. Ct. 2077
(2014), Gregory v. Ashcroft, 501 U.S. 452 (1991), and
Cipollone v. Liggett Group, 505 U.S. 504 (1992), require
that state authority be preserved absent a clear statement
of Congressional intent to limit it. Because “the States
are independent sovereigns in our federal system,” “[i]n
all pre-emption cases, and particularly in those in which
Congress has ‘legislated…in a field which the States have
traditionally occupied,’ [courts] ‘start with the assumption
that the historic police powers of the States were not to
be superseded by the Federal Act unless that was the
clear and manifest purpose of Congress.’” Medtronic,
Inc. v. Lohr, 518 U.S. 470, 484 (1996) (quoting Rice v.
Santa Fe Elevator Corp., 331 U.S. 218, 230 (1947)). If
those federalism principles are applied, as they must be
and as the Wisconsin Court of Appeals did, the CDA must
be construed to allow state tort law liability for negligent
conduct or website design or content creation, given the
lack of a clear statement of Congressional intent to bar
such liability.
Those core principles of federalism are absent from
CDA analysis by the Wisconsin Supreme Court, as well
as several federal circuits. Even though the state court
of appeals relied on these principles, the Wisconsin
Supreme Court eschewed them in holding that the CDA
barred state tort liability for Armslist’s “own actions”
in facilitating and encouraging illegal gun sales, even
though the CDA does not state that such liability is barred.
App. A at 7a, 24a, 38a, 41a; App. B at 51a, 58a-61a, 68a
(emphasis added). It is no exaggeration to say that much
of this Court’s federalism precedent appears to be a dead

9
letter in Wisconsin – and other courts as well. Accordingly,
this case also presents an important opportunity to reestablish that this Court’s federalism precedents provide
a limiting principle for construction of federal laws that
might infringe on state authority, including the CDA.
Only review by this Court can ensure that federal statutes
are construed in accord with the federalism principles
articulated by this Court.
Review is also needed because, if the CDA is read to
immunize website owners and operators from liability for
their own acts in intentionally designing and operating
websites with the purpose of facilitating illegal conduct,
the dangerous implications for society at large cannot be
overstated given the ubiquitous nature of the Internet,
and its potential for mischief.
I.

A Uniform Construction Of The CDA In Accord
With Its Text And Congressional Intent Presents
An Important Issue Of National Concern In Today’s
Internet-Driven Economy

According to the Commerce Department’s Bureau of
Economic Analysis, from 1998 to 2017, E-commerce grew
at an annual rate of over 4 times the growth in the overall
economy and “accounted for 6.9 percent ($1,351.3 billion) of
current-dollar gross domestic product” in 2017. 3 Familiar
businesses, such as Amazon.com and Walmart.com, derive
enormous revenue from Internet sales. But others use the
3. Bureau of Econ. Analysis, U.S. Dep’t of Commerce,
Measuring the Digital Economy: An Update Incorporating Data
from the 2018 Comprehensive Update of the Industry Economic
Accounts (Apr. 2019), available at https://www.bea.gov/system/
files/2019-04/digital-economy-report-update-april-2019_1.pdf.

10
Internet “to sell tainted, fake, and poor quality drugs to
anyone with a credit card and the willingness to pay,”4
and engage in all manner of nefarious activities, from
facilitating terrorism to the illegal firearm sales at issue
here. The growing importance and use of the Internet in
commerce and communications requires that the web not
become an anything-goes haven, exempt from traditional
rules of liability and accountability. Those hurt by illegal
sales through E-Commerce should not have lesser
recourse to compensation than they would against a brickand-mortar store – and the CDA provides no warrant to
create a difference. That some courts have established
the CDA as a bar to a remedy presents an issue of great
national importance that merits this Court’s attention.
After all, “[i]t is this Court’s responsibility to say what
a statute means, and once the Court has spoken, it is the
duty of other courts to respect that understanding of the
governing rule of law.” Rivers v. Roadway Express, Inc.,
511 U.S. 298, 312 (1994).
A.

Many Courts Have Construed The CDA To
Provide Sweeping Immunity For Websites’
Own Wrongful Conduct That Is Wholly At
Odds With The CDA’s Text and Purpose

The courts that have construed the CDA as a barrier
to civil recourse have eschewed this Court’s instruction
that the interpretive enterprise in construing a federal
statute is not “to assess the consequences of each approach
and adopt the one that produces the least mischief,” but “to
4. Bryan A. Liang & Tim Mackey, Searching for Safety:
Addressing Search Engine, Website, and Provider Accountability
for Illicit Online Drug Sales, 35 Am. J.L. & Med. 125, 126 (2009).

11
give effect to the law Congress enacted.” Lewis v. City of
Chicago, 560 U.S. 205, 217 (2010). Plainly, Congress enacted
Section 230 to serve a dual purpose: (1) to shield websites
and internet service providers (“ISPs”) from liability for
displaying offensive and defamatory content posted by
others, which it accomplishes by stating that websites and
ISPs shall not “be treated as the publisher or speaker of
any information provided by another information content
provider,” and (2) to encourage websites and ISPs to take
proactive steps to limit or eliminate access to offensive or
pornographic content, which it addresses by prohibiting
civil liability against websites and ISPs for voluntary, good
faith actions to restrict access to objectionable material.
47 U.S.C. § 230(c)(1), (2); see also H.R. Rep. No. 104-458,
at 194 (1996).
A court’s job “is to follow the text.” Baker Botts L.L.P.
v. ASARCO LLC, 135 S. Ct. 2158, 2169 (2015). Courts
that have narrowly construed CDA protections have
been faithful to that principle. They agree that “the plain
language of the [CDA] creates a defense when there is
(1) a provider or user of an interactive computer service
(2) whom a plaintiff seeks to treat, under a state law
cause of action, as a publisher or speaker of information
(3) that is provided by another information content
provider.” J.S. v. Village Voice Media Holdings, LLC,
184 Wash.2d 95, 104 (2015) (concurring). They agree that
nothing in the language of the CDA’s bar on “treat[ing]”
website providers as publishers or speakers of third party
information shields websites from liability for their own
conduct or content, or from liability that does not “treat”
them as a publisher or speaker of third-party content.

12
Nothing in the CDA’s text prevents holding a
business liable for negligently or intentionally creating
an unreasonably dangerous website marketplace, or
negligently designing a website, or creating dangerous
content like Armslist’s warning and search functions,
as none of those theories seek to treat the website as a
publisher or speaker of third party content. Yet that is
what the Supreme Court of Wisconsin and several other
courts have held, construing the CDA as immunizing
online businesses from any wrongdoing so long as one
causal factor of the harm was publication of a third party
post. That is not what the CDA says.
It is never appropriate to read a federal statute to
provide greater immunity than its language or purpose
warrants, but such an overreach is especially inappropriate
given the history of the CDA. When Congress enacted
the CDA in 1996, the Internet was in its infancy, “a
fragile new means of communication that could easily
be smothered in the cradle by overzealous enforcement
of laws and regulations applicable to brick-and-mortar
businesses.” Fair Housing Council of San Fernando
Valley v. Roommates.Com, LLC, 521 F.3d 1157, 1164 n.
15 (9th Cir. 2008) (“Roommates.com”). Today, internet
companies are some of the largest in the world, more
than capable of withstanding tort liability for their own
wrongful conduct that every other industry must endure.
B. Courts Are Construing The CDA Contrary To
Congressional Intent
Statements by sponsors of the CDA show that the
Wisconsin Supreme Court’s interpretation of Section 230
is contrary to Congressional intent. Christopher Cox,

13
a former Congressman who co-sponsored Section 230,
observed “how many Section 230 rulings have cited other
rulings instead of the actual statute, stretching the law,”
and that “websites that are ‘involved in soliciting’ unlawful
materials or ‘connected to unlawful activity’ should not
be immune under Section 230.’”5 Senator Ron Wyden, the
other co-sponsor of Section 230, has similarly emphasized
that “[t]he real key to Section 230 . . . was making sure
that companies in return for that protection—that
they wouldn’t be sued indiscriminately—were being
responsible in terms of policing their platforms.” Id.
Explaining his goals for Section 230, Senator Wyden
said, “I wanted to guarantee that bad actors would still
be subject to federal law. Whether the criminals were
operating on a street corner or online wasn’t going to make
a difference.”6 Moreover, Senator Richard Blumenthal
recently confirmed that he “disagree[s] with the courts
that have held that the Communications Decency Act
immunizes online firearm sales—like Armslist—for
facilitating illegal gun sales. *** [N]obody should infer
that Congress believes they were rightly decided.” Cong.
Record Volume 164, Number 49 (Wednesday, March 21,
2018) at p. S1852.

5. Alina Selyukh, Section 230: A Key Legal Shield For Facebook,
Google Is About To Change, NPR (Mar. 21, 2018), available at http://
www/npr/org/sections/alltechconsidered/2018/03/21/591622450/
section-230-a-key-legal-shield-for-facebook-google-is-about-tochange.
6. Ron Wyden, Floor Remarks: CDA 230 and SESTA,
Medium (Mar. 21, 2018), available at http://medium.com/@
RonWyden/floor-remarks-cda-230-and-sesta-32355d669a6e.

14
The Wisconsin Supreme Court’s decision directly
contradicts Congressional intent behind Section 230.
II. Review Is Needed To Resolve Sharp Disagreement
Over CDA Protections Between Federal Courts Of
Appeal, As Well As State Courts Of Last Resort
State courts of last resort and federal courts of appeal
disagree over virtually every aspect of what the CDA
means, and what, if any, immunity it provides. As these
conflicting views form the basis of rulings that the CDA
provides sweeping immunity, they have and will continue to
produce disparate and inconsistent rulings across courts.
A website accessible nationwide may find itself subject
to liability in Washington, but immune in Wisconsin –
on the basis of a federal law with a supposedly uniform
meaning. This Court’s review is needed to resolve the
inconsistencies, and provide an authoritative construction
of the CDA that does not rewrite its language, subvert
Congressional intent, or excessively infringe on state
authority.
A.

Courts Disagree Over Whether the CDA
Creates Immunity.

Courts disagree over whether the CDA creates
sweeping immunity or no immunity at all. Many courts
have relied on the Fourth Circuit, which has historically
taken a broad approach to the CDA,7 especially its
holding in Zeran v. America Online, Inc. that “[b]y its
plain language, § 230 creates a federal immunity to any
7. As noted in Section II.C. infra, the Fourth Circuit’s
approach appears to have narrowed recently.

15
cause of action that would make service providers liable
for information originating with a third party user of
the service.” 129 F.3d 327, 330 (4th Cir. 1997) (emphasis
added). The Wisconsin Supreme Court similarly held
that Section 230(c)(1) “immuniz[es] interactive computer
service providers from liability for publishing third-party
content.” App. A at 10a.
Directly contradicting the Fourth Circuit’s conclusion
that the CDA creates immunity “by its plain language[,]”
129 F.3d at 330, others courts have accurately observed
that “immunity” appears nowhere in the statute. J.S.,
184 Wash. 2d at 104 (concurring); Jones v. Dirty World
Entertainment Recordings LLC, 755 F.3d 398, 406 (6th
Cir. 2014); Barnes v. Yahoo!, Inc., 570 F.3d 1096, 1100 (9th
Cir. 2009). The Seventh Circuit, which has taken a narrow
approach to the CDA, held that “subsection (c)(1) does not
create an ‘immunity’ of any kind[,]” but rather “limits who
may be called the publisher of information that appears
online.” City of Chicago v. Stubhub!, Inc., 624 F.3d 363,
366 (7th Cir. 2010).
B. Courts Disagree Over What Is An “Information
Content Provider”
As the CDA only precludes treatment as a publisher
or speaker “of any information provided by another
information content provider,” who is an information
content provider is critical in determining the law’s reach.
Section 230(f)(3) of the CDA defines “information content
provider” as “any person or entity that is responsible,
in whole or in part, for the creation or development
of information provided through the Internet or any
interactive computer service.” However, there is stark

16
disagreement concerning what qualifies as content, what
it means to “develop” information, and whether and how
a party’s intent factors into the analysis.
1.

Courts Disagree Over What Constitutes
“Development”

In Roommates.com, the Ninth Circuit recognized
that websites that display content of others can also be
content providers who are subject to liability permissible
under the CDA:
[a] website operator can be both a service
provider and a content provider: If it passively
displays content that is created entirely by third
parties, then it is only a service provider with
respect to that content. But as to content that it
creates itself, or is “responsible, in whole or in
part” for creating or developing, the website is
also a content provider. Thus, a website may be
immune from liability for some of the content it
displays to the public but be subject to liability
for other content.
521 F.3d at 1162-63. According to the Ninth Circuit, to
determine if a service provider “developed” unlawful
content, courts should apply a “material contribution
test,” under which a service provider “falls within the
exception to section 230, if it contributes materially to the
alleged illegality of the conduct.” 521 F.3d at 1167-68. The
Ninth Circuit elaborated that “providing neutral tools to
carry out what may be unlawful or illicit searches does
not amount to ‘development’ for purposes of the immunity
exception.” Id. at 1169. But “material contribution” and

17
“neutral tools” appear nowhere in the CDA, and these
tests or standards, invented by the Ninth Circuit, have
taken on a life of their own as they have been applied
haphazardly across jurisdictions.
Many courts have expressly adopted the material
contribution test in one form or another, including the
Wisconsin Supreme Court (App. A at 14a-23a), the
Washington Supreme Court (J.S., 184 Wash. 2d at 103),
the Second Circuit (F.T.C. v. Leadclick Media, LLC, 838
F.3d 158, 176 (2d Cir. 2016)), the Sixth Circuit (Jones, 755
F.3d at 413) and the Tenth Circuit (F.T.C. v. Accusearch
Inc., 570 F.3d 1187, 1200-01 (10th Cir. 2009)). Others have
not done so. See, e.g., Klayman v. Zuckerberg, 753 F.3d
1354, 1358 (D.C. Cir. 2014); Huon v. Denton, 841 F.3d 733,
742 (7th Cir. 2016); Stubhub!, 624 F.3d at 366; Johnson v.
Arden, 614 F.3d 785, 790-92 (8th Cir. 2010). Still others
have declined to determine whether to apply it. Shiamili
v. Real Estate Group of New York, Inc., 17 N.Y.3d 281,
289-90 (2011).
Moreover, even among those expressly adopting
the material contribution test, there is disagreement
regarding when it applies. Compare J.S., 184 Wash. 2d at
103; App. A at 39a fn.4. As the Court of Appeals of New
York recognized, “[i]t may be difficult in certain cases to
determine whether a service provider is also a content
provider, particularly since the definition of ‘content
provider’ is so elastic, and no consensus has emerged
concerning what conduct constitutes ‘development.’”
Shiamilli, 17 N.Y.3d at 289-90.

18
2.

Courts Disagree Over Whether Website
Design Is “Content”

State courts of last resort and federal courts of appeal
have taken different, inconsistent positions regarding
whether website design itself can qualify as content. As
the Wisconsin Supreme Court’s dissent and the Wisconsin
Court of Appeals recognized, Yasmeen Daniel does not
seek to hold Armslist liable for any content created by
a third party. App. A at 38a; App. B at 60a-61a. Rather,
the complaint “alleges that Armslist is liable for its own
content, i.e., the design and search functionality of its
website.” App. A at 38a. The Wisconsin Supreme Court
rejected this position. In doing so, the Court reached
a conclusion that appears contrary to those of the
Washington Supreme Court and the Seventh Circuit. 8
In J.S., 184 Wash. 2d 95, the Washington Supreme
Court, sitting en banc, recognized that an ISP can be
liable for its own website design and content, even if one
cause of the harm was a third-party post, holding that
the CDA did not bar as a matter of law claims against a
website operator alleged to have specifically designed its
website posting rules to induce sex trafficking. 184 Wash.
2d at 101-103. Similarly, the Seventh Circuit has held that
a website’s business practices or design can be the basis
for a claim not barred by the CDA. See Stubhub!, 624 F.3d
at 364-66 (website’s decision to not include tax collection
function on website not entitled to CDA immunity).
8. The Wisconsin Supreme Court did acknowledge that the
Wisconsin Court of Appeals held that Armslist.com’s “design
features could be characterized as ‘content’ created by Armslist,
so Daniel’s claims did not require the court to treat Armslist as
the publisher of third-party content.” App. A at 7a.

19
However, the D.C. Circuit recently implied the opposite
holding that “[t]he decision to present this third-party data
in a particular format…and the choice of presentation does
not itself convert the search engine into an information
content provider.” Marshall’s Locksmith Service Inc. v.
Google, LLC, 925 F.3d 1263, 1269 (D.C. Cir. 2019).
Other Circuit Courts have addressed allegations
regarding website design by focusing on whether the
design helps develop third party content, without deciding
whether that website design constitutes actionable
content. See Nemet Chevrolet, Ltd. v. Consumeraffairs.
com, Inc., 591 F.3d 250, 257 (4th Cir. 2009); Jane Doe No.
1 v. Backpage.com, 817 F.3d 12, 21 (1st Cir. 2016).
3.

Courts Disagree Over Whether Intent Can
Support CDA Liability

The Supreme Courts of Wisconsin and Washington,
and federal circuits, also disagree over whether a website
creator’s or operator’s intent is relevant in deciding
whether the CDA bars claims as a matter of law.
The Washington Supreme Court indicated that intent
is relevant, holding that “[i]t [was] important to ascertain
whether in fact [the website operator] designed its posting
rules to induce sex trafficking to determine whether [the
website operator] is subject to suit under the CDA because
‘a website helps to develop unlawful content, and thus
falls within the exception to section 230, if it contributes
materially to the alleged illegality of the conduct.’” J.S.,
184 Wash. 2d at 103 (citing Roommates.com, 521 F.3d at
1168).

20
Yet the Wisconsin Supreme Court expressly rejected
this decision, holding that “the Washington Supreme
Court ignored the text of the CDA, and the overwhelming
majority of the cases interpreting it, by inserting an intent
exception into § 230(c)(1).” App. A at 27a. According to the
Wisconsin Supreme Court, “[u]nderlying this statement
is the implicit assumption that a website operator’s
subjective knowledge or intent may transform what would
otherwise be a neutral tool into a ‘material contribution’
to the unlawfulness of third-party content[,]” which is
an assumption that “has no basis in the text of § 230(c)
(1).” Id. In direct conflict with the Washington Supreme
Court, the Wisconsin Supreme Court determined “[t]hat
Armslist may have known that its site could facilitate
illegal gun sales does not change the result. Because
§ 230(c)(1) contains no good faith requirement, courts do
not allow allegations of intent or knowledge to defeat a
motion to dismiss.” App. A at 28a.
Federal courts of appeal are similarly divided.
According to the First Circuit’s holding in Jane Doe No. 1,
on which the Wisconsin Supreme Court relied, allegations
regarding a website creator’s intent are “a distinction
without a difference.” 817 F.3d at 21; App. A at 21a-22a.
But the First Circuit’s discussion of intent appears to
concern whether the claims treated the website operator
as a publisher of third party content, not whether it
qualified as an information content provider. The Sixth
Circuit has also questioned whether intent is relevant.
Jones, 755 F.3d at 413–14.
Other Circuits have taken a contrary position,
indicating that intent is relevant to the analysis of whether
a party developed content so as to qualify as an information

21
content provider. For example, in F.T.C. v. Accusearch Inc.,
570 F.3d 1187 (10th Cir. 2009), the Tenth Circuit rejected
Accusearch’s “attempts to portray itself as a provider of
neutral tools,” holding that “Accusearch’s actions were
not ‘neutral’ with respect to generating offensive content;
on the contrary, its actions were intended to generate
such content.” 570 F.3d at 1200-01 (emphasis added).
According to the 10th Circuit, “the offensive postings were
Accusearch’s raison d’etre and it affirmatively solicited
them.” 570 F.3d at 1200.
The Second Circuit has also indicated that intent
is relevant. F.T.C. v. Leadclick Media, LLC, held that
Leadclick was “not entitled to immunity because it
participated in the development of the deceptive content
posted on fake news pages” where it paid affiliates to
advertise “‘knowing that false news sites were common
in the industry.’” 838 F.3d at 176.
The Eighth Circuit has also acknowledged that intent
may be relevant to the CDA analysis, and recognized
that courts, including the Seventh Circuit, take intent
into account when determining whether the CDA bars
particular claims. Johnson, 614 F.3d at 791-92 (noting
that the Seventh Circuit permits liability under § 230(c)
(1) for “ISPs that intentionally designed their systems to
facilitate illegal acts, such as stealing music.”).
Furthermore, while the Wisconsin Supreme Court
purported to adopt the “material contribution” test set
forth by the Ninth Circuit in Roommates.com, as well as
that court’s related “neutral tools” analysis, it reached
an outcome that cannot be harmonized with the Ninth
Circuit’s decision. In holding that Armslist’s intent in

22
designing and operating its site was irrelevant to the
CDA analysis, the Wisconsin Supreme Court reached the
opposite conclusion of the Ninth Circuit, which held that
websites “designed to achieve illegal ends[,]” would not
be protected by the CDA. Roommates.com, 521 F.3d at
1167.
C.

Courts Disagree Over What Is Meant By
“ Treating” A Website Operator As The
Publisher Of Third Party Content

State courts of last resort and the federal circuit
courts of appeal disagree over what it means to “treat[]
[a website] as the publisher or speaker of any information
provided by another information content provider,” § 230,
which results in contrary conclusions regarding what
claims the CDA allows.
The Fourth Circuit created an “editorial functions”
test for CDA analysis, holding that “lawsuits seeking
to hold a service provider liable for its exercise of a
publisher’s traditional editorial functions—such as
deciding whether to publish, withdraw, postpone or alter
content—are barred.” Zeran, 129 F.3d at 330; see also
Nemet, 591 F.3d at 258.
Yet not all courts have adopted the “traditional
editorial functions” standard. See Huon, 841 F.3d at
743. And even those that do, do not always agree when it
applies. See, e.g., Jones, 755 F.3d at 410 (“***some state
tort claims will lie against website operators acting in
their publishing, editorial, or screening capacities.”); Jane
Doe No. 1, 817 F.3d at 21 (“Features *** which reflect
choices about what content can appear on the website

23
and in what form, are editorial choices that fall within the
purview of traditional publisher functions.”); Universal
Communication Sys., Inc. v. Lycos, 478 F.3d 413, 422
(1st Cir. 2007) (disagreeing with argument “that the
prohibition against treating Lycos ‘as the publisher’ only
immunizes Lycos’s ‘exercise of a publisher’s traditional
editorial functions—such as deciding whether to publish,
withdraw, postpone or alter content,’ and not its decisions
regarding the ‘construct and operation’ of its web sites”)
(internal citation omitted); F.T.C. v. LeadClick Media,
LLC, 838 F.3d at 176 (holding that CDA did not apply
where LeadClick was “being held accountable for its own
deceptive acts or practices” (emphasis in original); Green
v. America Online (AOL), 318 F.3d 465, 471 (3rd Cir. 2003)
(Section 230 proscribes liability for a claim “that AOL was
negligent in promulgating harmful content and in failing
to address certain harmful content on its network”); Ben
Ezra, Weinstein & Company, Inc. v. America Online
Inc., 206 F.3d 980, 986 (10th Cir. 2000) (“Congress clearly
enacted § 230 to forbid the imposition of publisher liability
on a service provider for the exercise of its editorial and
self-regulatory functions.”).
In this respect, the Wisconsin Supreme Court’s
decision conflicts with decisions by the California and
Washington Supreme Courts. In Hassell v. Bird, 5 Cal. 5th
522 (2018), the California Supreme Court held that while
a court order directing Yelp to remove certain consumer
reviews posted on its website was invalid under the CDA,
“not all legal duties owed by Internet intermediaries
necessarily treat them as the publishers of third party
content, even when these obligations are in some way
associated with their publication of this material.” 5 Cal.
5th at 526, 543.

24
The Washington Supreme Court took a narrower
approach. The concurrence explained that allegations
that a website “deliberately designed its posting rules
in a manner that would enable pimps to engage in sex
trafficking, including in the trafficking of minors, and to
avoid law enforcement…do not suggest that [it] is being
treated as a ‘publisher or speaker.’” J.S., 184 Wash. 2d.
at 113 (concurring). Hassell, 5 Cal. 5th at 543, suggests
that the California Supreme Court could reach a similar
conclusion.
The Wisconsin Supreme Court’s opinion is to the
contrary. It held that Yasmeen’s claims were barred because
the “duty Armslist is alleged to have violated derives from
its role as a publisher of firearms advertisements[.]” App.
A at 28a. According to the Wisconsin Supreme Court, a
website cannot be liable, even when its own conduct is
alleged to have caused harm, “when the underlying basis
for liability is unlawful third party content published by
the defendant.” App. A at 24a. The Wisconsin Supreme
Court read the CDA far more broadly than the California
and Washington Supreme Courts.
Like the Wisconsin Supreme Court, the First Circuit
has taken an overbroad approach to what it means to treat
an ISP as the publisher of third party content under the
CDA. In Lycos, the First Circuit, applying the “traditional
editorial functions” standard, held that “[i]f the cause of
action is one that would treat the service provider as the
publisher of a particular posting, immunity applies not
only for the service provider’s decisions with respect to
that posting, but also for its inherent decisions about how
to treat postings generally.” 478 F.3d at 422 (rejecting
argument that ISP is not immunized for “its decisions

25
regarding the ‘construct and operation’ of its websites”).
In Jane Doe No. 1, 817 F.3d 12, the First Circuit held
that the CDA broadly shielded a website from claims
brought by victims of sex trafficking even if the website’s
design and operations induced illegal postings, because
“[f]eatures such as these, which reflect choices about what
content can appear on the website and in what form, are
editorial choices that fall within the purview of traditional
publisher functions,” and are precluded by the CDA. 817
F.3d at 21-22.
In contrast to the First Circuit and the Wisconsin
Supreme Court, other federal courts of appeal have taken a
more narrow approach to whether a claim treats an ISP as
the publisher of third party content, holding that the CDA
does not protect website operators from liability for their
own conduct, even where the claims involve the publication
of third party content. For example, the Seventh Circuit,
without applying the traditional editorial functions test,
held that Section 230(c)(1) was “irrelevant” to a claim
that Stubhub!, an online marketplace for tickets, failed to
collect a city amusement tax because, unlike claims “for
defamation, obscenity or copyright infringement,” the
amusement tax law “does not depend on who ‘publishes’
any information or is a ‘speaker.’” StubHub!, 624 F.3d
at 366. The CDA did not bar liability even though it was
based on StubHub!’s failure to collect taxes on tickets
posted for sale by third parties. 9 Thus, in contrast to
9. Notably, while the First Circuit in Jane Doe No. 1, 817
F.3d at 21 n.5, rejected the Washington Supreme Court’s decision
in J.S., the Seventh Circuit has rejected the First Circuit’s broad
interpretation of the CDA as outlined in Lycos, 478 F.3d at 413.
Chicago Lawyers’ Comm. for Civil Rights Under Law, Inc. v.
Craigslist, Inc., 519 F.3d 666, 669-70 (7th Cir. 2008).

26
the First Circuit, the Seventh Circuit concluded that
business decisions concerning the operation of an online
marketplace are not necessarily, or inherently, publisher
functions protected by the CDA.
The Ninth Circuit also narrowly construed CDA
immunity in Doe v. Internet Brands, Inc., 824 F.3d 846,
851 (9th Cir. 2016), which held that the CDA did not bar
a failure to warn claim against a website that published
third-party posts, as the liability theory was not based on
its publishing of third party content. As the Ninth Circuit
explained, “Congress has not provided an all-purpose
get-out-of-jail-free card for businesses that publish
user content on the internet, though any claims might
have a marginal chilling effect on internet publishing
businesses.” Id. at 853. The Ninth Circuit reached that
conclusion despite the fact that “[p]ublishing activity
[was] a but-for cause of just about everything [the website]
[was] involved in” and even where the website “[was] an
internet publishing business” which “[w]ithout publishing
user content…would not exist.” Id. at 853. This ruling
was consistent with the Ninth Circuit’s earlier ruling in
Barnes v. Yahoo!, Inc., 570 F.3d at 1103, 1109, holding that
the CDA barred plaintiff’s negligent undertaking claim
but not its promissory estoppel claim.
Most recently, in HomeAway.com, Inc. v. City of
Santa Monica, 918 F.3d 676 (9th Cir. 2019), the Ninth
Circuit again took a narrow view of what it means to treat
a party as a publisher or speaker of third party content.
918 F.3d at 682. In holding that an ordinance prohibiting
short-term housing rentals was not preempted by the
CDA, the Ninth Circuit explained that courts should
decide CDA protection by examining the duty at issue

27
in the case, not simply whether a website publisher is
involved:
We do not read Internet Brands to suggest
that CDA immunity attaches any time a legal
duty might lead a company to respond with
monitoring or other publication activities. It is
not enough that third-party content is involved;
Internet Brands rejected use of a “but-for”
test that would provide immunity under the
CDA solely because a cause of action would not
otherwise have accrued but for the third-party
content. We look instead to what the duty at
issue actually requires: specifically, whether
the duty would necessarily require an internet
company to monitor third-party content.
HomeAway.com, 918 F.3d at 682. The Ninth Circuit
recognized that websites could be liable for failing to
screen persons who interact with the website so long as
it did not require monitoring public posts:
the Ordinance does not require the Platforms
to monitor third-party content and thus falls
outside of the CDA’s immunity. *** Rather,
the only monitoring that appears necessary
in order to comply with the Ordinance relates
to incoming requests to complete a booking
transaction—content that, while resulting from
the third-party listings, is distinct, internal,
and nonpublic. As in Internet Brands, it is not
enough that the third-party listings are a “butfor” cause of such internal monitoring.
Id.

28
This language from the Ninth Circuit suggests that
Armslist could be held liable for allowing illegal buyers
and sellers who had no legitimate business on the site.
Directly contrary to the Ninth Circuit’s decision in
Homeaway, the Wisconsin Supreme Court held that
the CDA barred Yasmeen’s negligence claim because
“[r]estated, it alleges that Armslist provided an online
forum for third-party content and failed to adequately
monitor that content.” App. A at 28a. But under the Ninth
Circuit’s decision, Armslist would only be protected if
Armslist would necessarily be required to monitor thirdparty content, which is not the case. HomeAway.com, 918
F.3d at 682.10
As more evidence of the confusion in CDA case law,
the Wisconsin Supreme Court relied on a Ninth Circuit
decision – Barnes v. Yahoo!, Inc. – in holding that “courts
must ask whether the duty that plaintiff alleges defendant
violated derives from the defendant’s status or conduct as
a ‘publisher or speaker’” and “[i]f it does, section 230(c)
(1) precludes liability.” App. A at 24a (citing 570 F.3d at
1102). However, the broad scope of Wisconsin Supreme
Court’s ruling conflicts with the Ninth Circuit’s narrower
conclusion that “[l]ooking at the text, it appears clear that
neither [230(c)(1)] nor any other [subsection] declares a
general immunity from liability deriving from third-party
content.” Barnes v. Yahoo!, Inc., 570 F.3d at 1100.

10. Armslist would not be required to monitor third-party
content if, for example, it required users to register before buying
a gun and to take delivery of firearms only through a federally
licensed firearms dealer as Yasmeen alleges Gunbroker.com does.
App. B at 50a-51a.

29
Moreover, what the CDA means in the Fourth Circuit
is confusing. While the court previously took a broader
approach to the CDA than the Seventh and Ninth Circuits,
recently the Fourth Circuit held that “to implicate the
immunity of § 230(c)(1), a claim must be based on the
interactive computer service provider’s publication of a
third party’s speech.” Erie Ins. Co. v. Amazon.com, Inc.,
925 F.3d 135, 139 (4th Cir. 2019). Using that standard,
the Fourth Circuit held that the CDA did not bar product
liability claims asserted against Amazon because the
claims were “not based on the publication of another’s
speech.” Id.
More conflict comes from a Third Circuit decision
this month that held the CDA did not bar negligence and
strict liability claims against Amazon, holding that while
“Amazon exercises online editorial functions,” the claims
did not “seek to treat Amazon as the publisher or speaker
of information provided by another information content
provider.” Oberdorf v. Amazon.com Inc., No. 18-1041,
2019 WL 2849153, at *11-12 (3d Cir. Jul 3, 2019). That
is precisely what Petitioner argues here and what the
Wisconsin Supreme Court rejected.
III. Review Is Warranted To Ensure That This Court’s
Federalism Precedent Is Followed
A.

This Court’s Federalism Precedent Requires
Reading The CDA Narrowly To Minimize The
Degree To Which Federal Law Overrides State
Law

This Court has made clear that “[i]t is incumbent
upon the [] courts to be certain of Congress’ intent before

30
finding that federal law overrides [the usual constitutional
balance of federal and state powers]” by supplanting
state law. Gregory, 501 U.S. at 460 (internal quotations
omitted); see also Bond, 134 S. Ct. at 2088. Even when
a statute’s “express language” mandates some degree
of preemption, the “presumption [against preemption]
reinforces the appropriateness of a narrow reading” of the
“scope” of the preemption. Cipollone, 505 U.S. at 517-18;
Medtronic, 518 U.S. at 485. This approach is “consistent
with both federalism concerns and the historic primacy
of state regulation of matters of health and safety.”
Medtronic, 518 U.S. at 485.
Gregory and Bond show how federal laws must be
read to preserve state authority. Gregory applied the clear
statement rule to find that a federal anti-age discrimination
law allowed Missouri’s mandatory retirement for judges,
holding that judges were excluded from the law because
they were “‘appointee[s] on the policymaking level.’” 501
U.S. at 464-65. Even though this was “an odd way for
Congress to exclude judges,” “particularly in the context
of the other exceptions that surround [the exclusion
applicable to judges],” the Court could not be “absolutely
certain” about Congress’ intent to include judges within
the federal statute. See id. at 467.
In Bond, “it was clear beyond doubt” that a defendant
violated a federal law, 134 S.Ct. at 2094 (Scalia J.,
concurrence), but because a plain reading would lead to
the federal government “‘dramatically intrud[ing] upon
traditional state criminal jurisdiction,’” the Court found
that “ambiguity derives from the improbably broad reach
of the key statutory definition” and did not apply it. Id.
at 2088 (quoting Bass, 404 U.S. at 350), 2090. The Court

31
rejected a reading that “would ‘alter sensitive federalstate relationships ***.’” 134 S. Ct. at 2091-92 (quoting
earlier Bond decision).
The Wisconsin Court of Appeals cited Medtronic
and Gregory in finding that the presumption against
preemption and clear statement rules support interpreting
the CDA as not barring Petitioner’s claims. App. B at
58a-68a. The Court found it significant that in the CDA
“Congress limited immunity to a single circumstance:
when a theory of liability treats the website creator or
operator ‘as the publisher or speaker of any information
provided by another information content provider.’” App.
B at 63a (quoting 47 U.S.C. § 230(c)(1)).
A s the Wisconsin Court of Appeals correctly
recognized, the CDA comes nowhere close to clearly
stating that claims like Petitioner’s are barred. App. B at
58a-68a. The CDA states that ISPs may not be treated
“as the publisher or speaker of any information provided
by another information content provider” (§ 230(c)(1)
(emphasis added)), not that websites cannot be held liable
if “treat[ed]” as a website designer or creator of content
that causes harm. Honing in on this critical distinction,
the Wisconsin Court of Appeals observed that Plaintiff’s
“claims and the supporting allegations do not seek to
hold Armslist liable for publishing another’s information
content. Instead, the claims seek to hold Armslist liable
for its own alleged actions in designing and operating
its website in ways that caused injuries.” App. B at 68a
(emphasis added). Applying Bond, Gregory, Cipollone,
and Medtronic, the CDA allows Petitioner’s claims to
proceed.

32
B. The Supreme Court Of Wisconsin Refused To
Apply The Federalism Principles Mandated By
This Court
Petitioner and the Court of Appeals of Wisconsin
squarely presented the necessity of applying this Court’s
federalism lens to the interpretation of the CDA. App. B
at 58a-59a; Brief of Plaintiff-Appellant at 13, 19-20 (Sup.
Ct. Wis., Jan. 8, 2019). Nonetheless, the Supreme Court
of Wisconsin ignored this Court’s teachings and failed
to even reference any of these cases. Effectively, this
Court’s federalism precedent is null and void in Wisconsin,
at least when the CDA is considered. Indeed, virtually all
courts construing the CDA have similarly ignored and
failed to apply the clear statement rule or any federalism
principles.
Such defiance of this Court’s precedent should not
stand, especially when core principles of federalism and
state sovereignty are at stake. State and federal courts
should not feel entitled to simply disregard this Court’s
teachings and adopt their own approaches to statutory
interpretation – even when faced with this Court’s plainly
applicable precedent, and core principles of federalism are
subverted. Federalism is not a permissive principle. This
Court’s precedent cannot be disregarded when courts find
it inconvenient.
IV. Review Is Warranted Because The Wisconsin
Supreme Court’s Interpretation Of The CDA
Creates A “Lawless No Man’s Land” On The
Internet
The CDA was not intended “to create a lawless noman’s-land on the internet.” Roommates.com, 521 F.3d

33
at 1164; see also United States v. Ulbricht, 31 F. Supp.
3d 540, 568 (S.D.N.Y. 2014) (“Even a quick reading of
the statute makes it clear that it is not intended to apply
to … intentional and criminal acts.”). Yet the Wisconsin
Supreme Court’s decision opens the door to exactly that,
immunizing dangerous conduct that would be subject
to liability if it occurred in real space. According to the
Wisconsin Supreme Court, people could intentionally
facilitate crimes from drug trafficking to terrorism
to gun trafficking, for profit, and so long as one of the
causal factors of the harm they created was an online
posting by a third party, states would be powerless to
subject them to civil liability for their misconduct. Indeed,
under the Wisconsin Supreme Court’s decision, even the
creator of the website “Silk Road,” who was convicted of
seven criminal charges, including narcotics and money
laundering conspiracies, for designing a “sophisticated
and extensive [Internet] criminal marketplace” that
enabled thousands of individuals to anonymously transact
in illegal drugs without detection, would be immunized
from liability to any individual harmed by its illegal acts.
See United States v. Ulbricht, 31 F. Supp. 3d 540, 549
(S.D.N.Y. 2014); Jury Verdict, Ulbricht, 31 F. Supp. 3d
540 (Feb. 5, 2015).
Congress enacted the CDA in the early days of the
Internet to allow it to grow while keeping objectionable
materials from children. 141 Cong. Rec. S8087 (daily ed.
June 9, 1995); 47 U.S.C. § 230(a); 141 Cong. Rec. H486970 (daily ed. Aug. 4, 1995); 47 U.S.C. § 230(b). A desire
to nurture online commerce may have led to some of the
early expansive readings of the CDA.11 But even over a
11. See Gregory M. Dickinson, Note, An Interpretive
Framework for Narrower Immunity Under Section 230 of the

34
decade ago the Ninth Circuit observed that “[t]he Internet
is no longer a fragile new means of communication that
could easily be smothered in the cradle by overzealous
enforcement of laws and regulations applicable to
brick-and-mortar businesses. Rather, it has become a
dominant—perhaps the preeminent—means through
which commerce is conducted.” Roommates.com, 521 F.3d
at 1164, n. 15. That is only more true today.
Given the pervasiveness of the Internet, and the extent
to which it reaches into our everyday lives, extending
Section 230 to immunize websites that intentionally profit
from tortious or criminal conduct, as Armslist does, has
dangerous and far reaching implications. As the Ninth
Circuit explained in refusing to exempt websites from the
obligation to “comply with laws of general applicability,”
the Internet’s “vast reach into the lives of millions is
exactly why we must be careful not to exceed the scope of
the immunity provided by Congress and thus give online
businesses an unfair advantage over their real-world
counterparts, which must comply with laws of general
applicability.” Id. The Ninth Circuit recently reiterated
that “allowing internet companies to claim CDA immunity
under these circumstances would risk exempting them
from most local regulations and would… ‘create a lawless
no-man’s-land on the Internet.’” HomeAway.com, Inc.
918 F.3d at 683 (citing Roommates.com, 521 F.3d at 1164).
Nonetheless, the Wisconsin Supreme Court’s decision,
which protects a website owner and operator from civil
liability for its own negligent and intentional actions in
Communications Decency Act, 33 H arv. J.L. & Pub. Pol’y 863,
873-74 (2010).

35
designing and operating its website to encourage and
facilitate illegal and tortious activity, and those like
it, threatens to create a lawless no-man’s-land on the
Internet in which conduct that could be subject to liability
– and potential criminal prosecution – in real space, would
be immune in cyberspace. Such a decision sends a message
to criminal and other dangerous enterprises to set up shop
online. Congress had no such intention, nor did it express
any in the CDA.
CONCLUSION
For the foregoing reasons, the petition for writ of
certiorari should be granted.
Jonathan E. Lowy
Brady
840 First Street, NE,
Suite 400
Washington, DC 20002
(202) 870-8100

Respectfully submitted,
Samantha J. K atze
Counsel of Record
Jacqueline C. Wolff
Molly K. Wyler
Manatt, Phelps & Phillips, LLP
7 Times Square
New York, New York 10036
(212) 790-4500
skatze@manatt.com

Patrick O. Dunphy
Brett A. Eckstein
Cannon & Dunphy, S.C.
595 North Barker Road
P.O. Box 1750
Brookfield, WI 53045
(262) 780-7188
Counsel for Petitioner

APPENDIX

1a
Appendix A
Appendix A — decision
of the SUPREME
COURT OF WISCONSIN, filed April 30, 2019
SUPREME COURT OF WISCONSIN
No. 2017AP344
YASMEEN DANIEL, Individually, and as Special
Administrator of the Estate of Zina Daniel Haughton,
Plaintiff-Appellant,
TRAVELERS INDEMNITY COMPANY
OF CONNECTICUT, as Subrogee for Jalisco’s LLC,
Intervening-Plaintiff,
v.
ARMSLIST, LLC, an Oklahoma Limited
Liability Company, BRIAN MANCINI
and JONATHAN GIBBON,
Defendants-Respondents-Petitioners,
BROC ELMORE, ABC INSURANCE CO., the
fictitious name for an unknown insurance company,
DEF Insurance Co., the fictitious name for
an unknown insurance company and Estate
of Radcliffe Haughton, by his Special
Administrator Jennifer Valenti,
Defendants,

2a
Appendix A
PROGRESSIVE UNIVERSAL INSURANCE
COMPANY,
Intervening-Defendant.
April 30, 2019, Filed
REVIEW of decision of the Court of
Appeals. Reversed.
¶1 PATIENCE DRAKE ROGGENSACK, C.J. We
review a decision of the court of appeals1 reversing the
circuit court’s2 dismissal of Yasmeen Daniel’s complaint
against Brian Mancini, Jonathan Gibbon, and Armslist,
LLC (collectively “A rmslist”). Daniel’s tort action
arose from a mass shooting in a Brookfield, Wisconsin
spa that killed four people, including Daniel’s mother
Zina Daniel Haughton. Daniel alleged that the shooter,
Radcliffe Haughton, illegally purchased the firearm
after responding to private seller Devin Linn’s post on
Armslist’s firearm advertising website, armslist.com.
The court of appeals held that 47 U.S.C. § 230 (2018), 3 the
federal Communications Decency Act of 1996 (CDA), did
not bar Daniel’s claims against Armslist for facilitating
Radcliffe’s illegal purchase.
1. Daniel v. Armslist, LLC, 2018 WI App 32, 382 Wis. 2d
241, 913 N.W.2d 211.
2. The Honorable Glenn H. Yamahiro of Milwaukee County
presided.
3. All references to federal statutes are to the 2018 version
unless otherwise noted.

3a
Appendix A
¶2 We disagree, and conclude that § 230(c)(1) requires
us to dismiss Daniel’s complaint against Armslist.
Section 230(c)(1) prohibits claims that treat Armslist, an
interactive computer service provider,4 as the publisher
or speaker of information posted by a third party on its
website. Because all of Daniel’s claims for relief require
Armslist to be treated as the publisher or speaker of
information posted by third parties on armslist.com, her
claims are barred by § 230(c)(1). Accordingly, we reverse
the decision of the court of appeals, and affirm the circuit
court’s dismissal of Daniel’s complaint.
I. Background5
¶3 In October 2012, a Wisconsin court granted
Zina Daniel Haughton a restraining order against her
husband, Radcliffe Haughton, after he had assaulted her
and threatened to kill her. Pursuant to the restraining
order, Radcliffe was prohibited by law from possessing
a firearm for four years. See Wis. Stat. § 941.29(1m)(f)
4. An “interactive computer service” is “any information
service, system, or access software provider that provides or
enables computer access by multiple users to a computer server,
including specifically a service or system that provides access
to the Internet and such systems operated or services offered
by libraries or educational institutions.” 47 U.S.C. § 230(f)(2). It
is uncontested that Armslist is an interactive computer service
provider.
5. Because we review defendant Armslist, LLC’s motion
to dismiss, we accept all of the factual allegations in Daniel’s
complaint as true. See Data Key Partners v. Permira Advisers
LLC, 2014 WI 86, ¶17, 356 Wis. 2d 665, 849 N.W.2d 693.

4a
Appendix A
(2017-18).6 Despite this court order, Radcliffe posted a
“want to buy” advertisement on armslist.com and stated
that he was seeking to buy a handgun with a high-capacity
magazine “asap.” He then viewed an offer of sale posted
by Devin Linn on armslist.com for a semiautomatic
handgun. Using armslist.com’s “contact” function, he
emailed Linn to arrange to purchase the handgun. The
two exchanged phone numbers and set up a meeting by
phone. On October 20, they met in a McDonald’s parking
lot in Germantown, Wisconsin. Linn sold Radcliffe the
gun, along with ammunition, for $500.
¶4 On October 21, one day after Radcliffe had
purchased the handgun from Linn, he carried it into the
Azana Spa and Salon in Brookfield, Wisconsin, where
Zina worked. He fatally shot Zina and two other people,
injured four others, and shot and killed himself. Yasmeen
Daniel was inside the building at the time and witnessed
the shooting.
¶5 Armslist.com is a classified advertising website
similar to Craigslist. Prospective sellers may post
advertisements for firearms and firearm-related products
they wish to sell, prospective buyers may post “want
advertisements” describing the firearms they wish to buy.
Buyers and sellers may contact one another either through
personal contact information they provide on the website,
or by using armslist.com’s “contact” tool. According to the
complaint, Armslist receives revenue through advertising
6. All subsequent references to the Wisconsin Statutes are
to the 2017-18 version unless otherwise indicated.

5a
Appendix A
on armslist.com; there is no allegation that Armslist
itself participates in the purchase and sale of firearms
beyond allowing users to post and view advertisements
and contact information on armslist.com.
¶6 According to Daniel’s allegations, Radcliffe
shopped for the murder weapon exclusively on armslist.
com because he recognized that the website’s design
features made it easier for prohibited purchasers like
him to illegally purchase firearms. Armslist.com allows
potential buyers to use a “seller” search filter to specify
that they want to buy firearms only from private sellers,
rather than from federally licensed dealers. Private
sellers, as opposed to federally licensed gun dealers, are
not required to conduct background checks in Wisconsin.
The website also does not require buyers or sellers
to create accounts, which encourages anonymity, and
displays next to each advertisement whether the account
is registered or unregistered.
¶7 Armslist.com allows users to flag content for
a number of different reasons, including “scam,”
“miscategorized,” and “overpriced,” and uses these flags
to delete certain posts. However, it does not allow users
to flag content as “criminal” or “illegal” and does not take
action to delete illegal content. The website contains no
restrictions on who may create an account, or who may
view or publish firearm advertisements using its website.
The website’s lack of restrictions allows buyers to avoid
state-mandated waiting periods and other requirements.
Armslist does not provide private sellers with legal
guidance as to federal and state laws governing the sale
of firearms.

6a
Appendix A
¶8 Daniel’s complaint also suggests several simple
measures Armslist could have taken in order to reduce
the known risk of illegal firearm sales to dangerous
prohibited purchasers. Daniel alleges that Armslist could
have required buyers to create accounts and provide
information such as their name, address, and phone
number. In states similar to Wisconsin, where there is
online access to an individual’s criminal history, Armslist
could have required potential buyers to upload their
criminal history before their accounts were approved.
She alleges Armslist could have allowed users to flag
potentially illegal firearm sales. It could have prohibited
users from obtaining one another’s contact information
until Armslist confirmed their legal eligibility to buy
and sell firearms. According to the complaint, all these
measures would have reduced the risk of firearm sales to
persons prohibited from owning a firearm.
¶9 Based on all these features and omissions, Daniel’s
complaint alleges that Armslist knew or should have
known that its website would put firearms in the hands
of dangerous, prohibited purchasers, and that Armslist
specifically designed its website to facilitate illegal
transactions. The causes of action asserted against
Armslist are negligence, negligence per se, negligent
infliction of emotional distress, civil conspiracy, aiding and
abetting tortious conduct, public nuisance, and wrongful
death.7 Armslist argued that the CDA immunizes it from
liability for the information posted by third parties on
7. The complaint also asserts causes of action against Devin
Linn and the Radcliffe Haughton Estate that are not at issue here.

7a
Appendix A
armslist.com, and moved to dismiss Daniel’s complaint for
failure to state a claim upon which relief can be granted
pursuant to Wis. Stat. § 802.06(2)(a)6.
¶10 The circuit court granted Armslist’s motion and
dismissed the complaint. The circuit court explained that
the relevant question under the CDA is not whether the
complaint calls the defendant a publisher, but whether the
cause of action requires the court to treat the defendant as
the publisher of third-party content. The CDA immunizes
an interactive computer service provider from liability
for passively displaying content created by third parties,
even when the operator exercises “traditional publisher
functions” by deciding “what content can appear on the
website and in what form.” Armslist.com’s design features
“reflect choices about what content can appear on the
website and in what form,” and are therefore “editorial
choices that fall within the purview of traditional publisher
functions.” For this reason, the circuit court concluded
that the CDA bars all of Daniel’s claims against Armslist.
¶11 The court of appeals reversed. Daniel v. Armslist,
LLC, 2018 WI App 32, ¶5, 382 Wis. 2d 241, 913 N.W.2d 211.
The court of appeals held that the CDA does not protect
a website operator from liability for its own actions in
designing and operating its website. Id., ¶42. According
to the court of appeals, armslist.com’s design features
could be characterized as “content” created by Armslist,
so Daniel’s claims did not require the court to treat
Armslist as the publisher of third-party content. Id., ¶44.
Additionally, holding Armslist liable for its own operation
of its website did not require treating it as a publisher or
speaker of third-party content. Id., ¶42.

8a
Appendix A
¶12 The court of appeals acknowledged that a large
body of federal case law has interpreted the CDA as
providing immunity when an interactive computer service
provider exercises a publisher’s “traditional editorial
functions,” such as providing a forum for third parties to
post content. Id., ¶¶48-49. However, the court of appeals
concluded that all of these cases “read[] into the Act
language that is not present” and rejected them all as
unpersuasive. Id. ¶¶48-50. We granted Armslist’s petition
for review, and now reverse the decision of the court of
appeals.
II. DISCUSSION
A. Standard of Review
¶13 We review a motion to dismiss for failure to state a
claim upon which relief may be granted, and in so doing we
must interpret and apply a statute. “Whether a complaint
states a claim upon which relief can be granted is a question
of law for our independent review; however, we benefit
from discussions of the court of appeals and circuit court.”
Data Key Partners v. Permira Advisers LLC, 2014 WI
86, ¶17, 356 Wis. 2d 665, 849 N.W.2d 693 (citation omitted).
“When we review a motion to dismiss, factual allegations
in the complaint are accepted as true for purposes of our
review. However, legal conclusions asserted in a complaint
are not accepted, and legal conclusions are insufficient to
withstand a motion to dismiss.” Id., ¶18 (citations omitted).
“Statutory interpretation and the application of a statute
to a given set of facts are questions of law that we review
independently,” while benefiting from the interpretations

9a
Appendix A
and applications of other Wisconsin court decisions.
Marder v. Bd. of Regents of Univ. of Wis. Sys., 2005 WI
159, ¶19, 286 Wis. 2d 252, 706 N.W.2d 110.
B. The Communications Decency Act
¶14 The CDA is set out in 47 U.S.C. § 230. The CDA
was enacted in large part to “to preserve the vibrant
and competitive free market that presently exists for
the Internet and other interactive computer services,
unfettered by Federal or State regulation.” § 230(b)(2).
Congress found that the internet had “flourished, to the
benefit of all Americans, with a minimum of government
regulation.” § 230(a)(4). For this reason, Congress sought
to prevent state and federal laws from interfering with
the free exchange of information over the internet.
¶15 Limiting interference from federal and state laws
includes protecting interactive computer service providers
who operate forums for third-party speech from the
“specter of tort liability” for hosting third-party content.
Jones v. Dirty World Entm’t Recordings LLC, 755 F.3d
398, 407 (6th Cir. 2014) (quoting Zeran v. Am. Online,
Inc., 129 F.3d 327, 331 (4th Cir. 1997)). The imposition
of tort liability for hosting third-party content would
have an “obvious chilling effect” on the free exchange
of information over the internet, Jones, 755 F.3d at 407
(citing Zeran, 129 F.3d at 331), as it would deter interactive
computer service providers from hosting third-party
content. This would significantly impede the free exchange
of information over the internet. See Jones, 755 F.3d at 408.

10a
Appendix A
¶16 Section 230(c)(1) addresses this problem by
immunizing interactive computer service providers from
liability for publishing third-party content. The subsection
states: “No provider or user of an interactive computer
service shall be treated as the publisher or speaker of
any information provided by another information content
provider.” § 230(c)(1). The act also preempts any state
tort claims: “[n]o cause of action may be brought and no
liability may be imposed under any State or local law that
is inconsistent with this section.” § 230(e)(3). Section 230(c)
(1) therefore prevents the specter of tort liability from
undermining an interactive computer service provider’s
willingness to host third-party content.
¶17 At the same time, however, Congress did not want
to discourage interactive computer service providers
from voluntarily screening obscene or unlawful thirdparty content, as some state courts had done. See, e.g.,
Stratton Oakmont, Inc. v. Prodigy Servs. Co., 1995 N.Y.
Misc. LEXIS 229, 1995 WL 323710 (N.Y. Sup. Ct. May 24,
1995) (unpublished) (holding that an interactive computer
service provider could be treated as the publisher of some
defamatory statements posted by third parties on its site
because it had voluntarily deleted other offensive thirdparty posts). Section 230(c)(2) addresses this concern
by shielding an interactive computer service provider
from liability for “any action voluntarily taken in good
faith to restrict access to or availability of material
that the provider or user considers to be obscene, lewd,
lascivious, filthy, excessively violent, harassing, or
otherwise objectionable, whether or not such material is
constitutionally protected.” Section 230(c) ensures that

11a
Appendix A
as a “Good Samaritan,” an interactive computer service
provider may remove some objectionable third-party
content from its website without fear of subjecting itself
to liability for objectionable content it does not remove.
Chi. Lawyers’ Comm. for Civil Rights Under Law, Inc.
v. Craigslist, Inc., 519 F.3d 666, 669-70 (7th Cir. 2008).
¶18 Therefore, rather than force interactive computer
service providers to screen objectionable content, Congress
chose to simply remove disincentives for screening such
content voluntarily. See, e.g., id. at 670 (explaining that
Congress chose to deal with the problem of liability for
hosting third-party content “not with a sword but with a
safety net.”); see also Zeran, 129 F.3d at 331. Together, §
230(c)(1) & (2) allow interactive computer service providers
to be “indifferent to the content of information they host
or transmit: whether they do (subsection (c)(2)) or do not
(subsection (c)(1)) take precautions, there is no liability
under either state or federal law.” Chi. Lawyers’ Comm.,
519 F.3d at 670.
¶19 Section 230(c)(1) is the subsection central to this
case. The text of subsection (c)(1) supplies three criteria
that must be satisfied before the CDA bars a plaintiff’s
claims: (1) the defendant “is a ‘provider or user of an
interactive computer service’; (2) the claim is based on
‘information provided by another information content
provider’; and (3) the claim would treat [the defendant] ‘as
the publisher or speaker’ of” the information. Jane Doe
No. 1 v. Backpage.com, LLC, 817 F.3d 12, 19 (1st Cir. 2016)
(citations omitted); see also Klayman v. Zuckerberg, 753
F.3d 1354, 1357, 410 U.S. App. D.C. 187 (D.C. Cir. 2014).

12a
Appendix A
¶20 Daniel does not dispute that Armslist, LLC, as
the operator of armslist.com, is an interactive computer
service provider. Her arguments involve the second and
third criteria of § 230(c)(1). She challenges the second
criterion by arguing that Armslist, through the design
and operation of its website, helped to develop the content
of the firearm advertisement such that the information
was not exclusively provided by Linn. This would make
Armslist an information content provider with respect
to the advertisement; and therefore, place it outside of
the CDA’s protection. She challenges the third criterion
by arguing that her claims are not based on Armslist’s
publication of content at all, but are instead based on
Armslist’s facilitation and encouragement of illegal
firearm sales by third parties. If Daniel’s claims do not
require Armslist to be treated as the publisher or speaker
of Linn’s advertisement, then the CDA does not bar her
claims.
C. Information Content Provider
¶21 Regarding the second criterion of Section 230(c)
(1), CDA immunity exists only when the plaintiff’s claims
are based on content provided by another information
content provider. If a defendant is an “information content
provider” for the content at issue, then the defendant is
not entitled to CDA immunity. § 230(c)(1); Jones, 755 F.3d
at 408. An information content provider is “any person
or entity that is responsible, in whole or in part, for the
creation or development of information provided through
the Internet or any other interactive computer service.”
§ 230(f)(3). “A website operator can simultaneously act

13a
Appendix A
as both a service provider and content provider.” Jones,
755 F.3d at 408; see also Fair Hous. Council of San
Fernandino Valley v. Roommates.com, LLC, 521 F.3d
1157 (9th Cir. 2008). In short, an interactive computer
service provider, such as Armslist, is not liable for
publishing a third party’s content, but may be liable for
publishing its own content.
¶22 A defendant is an information content provider
with regard to content published on the internet only if
the defendant is “responsible, in whole or in part, for the
creation or development 8” of the content. Section 230(f)
(3). Courts have recognized that the word “development”
cannot be read too broadly or too narrowly. On one hand,
an overly broad reading could render an interactive
service provider “responsible for the development of
content created by a third party merely by displaying
or allowing access to it.” Jones, 755 F.3d at 409. This
would “swallow[] up every bit of the immunity that the
section otherwise provides,” effectively writing § 230(c)
(1)’s immunity provision out of the statute. Roommates.
com, 521 F.3d at 1167.
¶23 On the other hand, an overly narrow reading of
the word “development” risks ignoring the phrase “in
whole or in part.” See § 230(f)(3). It cannot be the case that
an interactive computer service provider is categorically
immune from liability for any exercise of its publishing,
editorial, and screening functions; a website operator who
8. Linn, not Armslist, created the firearm advertisement.
The issue in this case is whether Armslist helped to “develop” the
content of the advertisement.

14a
Appendix A
removes the word “not” from a third party’s post stating
that “[Name] did not steal the artwork” is responsible for
developing potentially defamatory content. Roommates.
com, 521 F.3d at 1169. For this reason, courts recognize
that “despite the CDA, some state tort claims will lie
against website operators acting in their publishing,
editorial, or screening capacities.” Jones, 755 F.3d at 410.
¶24 In order to avoid these two extremes and to
remain faithful to the text and purpose of § 230, courts
use the “material contribution” test to determine whether
a website operator is responsible for the “development” of
content. “[A] website helps to develop unlawful content,
and thus falls within [Section 230(f)(3)], if it contributes
materially to the alleged illegality of the conduct.”
Roommates.com, 521 F.3d at 1168. A material contribution
“does not mean merely taking action that is necessary to
the display of allegedly illegal content,” such as providing
a forum for third-party posts. Jones, 755 F.3d at 410.
“Rather, it means being responsible for what makes the
displayed content allegedly unlawful.” Id.
¶25 The Ninth Circuit’s decision in Roommates.
com, 521 F.3d 1157, demonstrates how the material
contribution test operates. Housing website Roommates.
com required users to disclose their sex, race, sexual
orientation, and whether they will bring children to the
household in order to use the site. Id. at 1161. It also
required renters to list their roommate preferences
regarding these characteristics. Id. It was illegal under
the Fair Housing Act and California anti-discrimination
law for renters to request this information. Id. at 1161-

15a
Appendix A
62. After selecting their preferences, users could access
the “Additional Comments” section, a blank text box
for users to “describe [themselves] and what [they] are
looking for in a roommate.” Id. at 1173. Some renters
posted discriminatory preferences in this text box, such
as “prefer white Male roommates” or “NOT looking for
black [M]uslims.” Id. The Fair Housing Council sued
Roomates.com for violating the Fair Housing Act and
state anti-discrimination laws. Id. at 1162.
¶26 The Ninth Circuit concluded that the CDA
immunized Roommates.com from liability for the content
of the “Additional Comments” section, but not for the
required disclosures of characteristics like race and sex.
Id. at 1165-67. The information posted in the “Additional
Comments” section “comes entirely from subscribers
and is passively displayed by Roommate.” Id. at 1174.
Roommates.com did not contribute to the unlawfulness of
this content, but merely provided a place for the content
to be posted. In contrast, the required disclosures of
protected characteristics did amount to the development
of content, making Roommates.com an information
content provider with respect to these disclosures. Id. at
1167-68. By requiring users to enter characteristics and
preferences such as age, race, sex, and sexual orientation
as a condition of using the website, and by designing its
website to hide listings from certain users based on these
protected characteristics, Roommates.com materially
contributed to the illegality of the content itself. Id. at 1169.
¶27 Decisions from other federal courts interpreting
the CDA are helpful in distinguishing when a defendant

16a
Appendix A
has materially contributed to the illegality of third-party
content from when a defendant has merely published
content created by someone else. In Chi. Lawyers’ Comm.,
owners of apartment buildings posted discriminatory
advertisements on Craigslist’s housing section in violation
of the Fair Housing Act. Chi. Lawyers’ Comm., 519 F.3d
at 668. Plaintiffs sued Craigslist for allegedly “causing”
these Fair Housing Act violations. Id. at 671. The Seventh
Circuit held that the CDA barred the plaintiffs’ claims,
explaining that “[o]ne might as well say that people who
save money ‘cause’ bank robbery.” Id. While Craigslist was
responsible for the illegal content “in the sense that no one
could post a discriminatory ad if [C]raigslist did not offer
a forum,” id., Craigslist did not materially contribute to
the illegality of the content.
¶28 Similarly, in Goddard v. Google, Inc., 640 F.
Supp. 2d 1193 (N.D. Cal. 2009), a class of plaintiffs alleged
that Google materially contributed to the illegality of
fraudulent advertisements posted by Google’s advertising
customers. The claims were based on Google’s “Keyword
Tool,” which suggested specific keywords to Google’s
advertising customers. If an advertiser entered the word
“ringtone,” for example, the tool suggested the phrase
“free ringtone.” Id. at 1197. Some advertisers using this
tool falsely advertised their ringtones as “free,” resulting
in unauthorized charges to consumers. Id. The plaintiffs
argued that Keyword Tool’s suggestion made Google a
“developer” of the third-party advertisers’ fraudulent
content. Id.

17a
Appendix A
¶ 29 The district court rejected this argument. Even
assuming that Google was aware its Keyword Tool was
being used to create illegal content, the Keycite Tool was
a “neutral tool” much like the additional comments section
in Roommates.com: it “merely provide[d] a framework that
that could be utilized for proper or improper purposes.” Id.
(quoting Roommates.com, 521 F.3d at 1172). Additionally,
there is no good faith requirement in § 230(c)(1). Therefore,
an interactive computer service provider will not be liable
for providing neutral tools “even if a service provider
knows that third parties are using such tools to create
illegal content.” Id. at 1198 (citations omitted).
¶30 In contrast to these cases, in which the interactive
computer service provider merely made illegal content
more easily available, courts have denied CDA immunity
when an interactive computer service provider materially
contributes to the illegality of the content itself. FTC v.
LeadClick Media, LLC, 838 F.3d 158 (2nd Cir. 2016),
provides an example of a material contribution. LeadClick
was an affiliate-marketing business that connected its
clients to third-party publishers (affiliates), who then
published the clients’ advertisements on the internet.
Some of LeadClick’s affiliates used fake news websites to
advertise a LeadClick client’s weight loss products, and
included false and misleading information such as fake
customer reviews. Id. at 164-65. LeadClick’s employees
directed affiliates to make specific edits to advertisements
in order to avoid being “crazy [misleading].” For example,
a LeadClick employee told an affiliate to make a false
advertisement appear “more ‘realistic’” by lowering the
amount of falsely claimed weight loss. Id. at 176.

18a
Appendix A
¶31 The Federal Trade Commission brought an action
for deceptive trade practices, and the Second Circuit held
that the CDA did not immunize LeadClick. Id. LeadClick
“developed” the unlawful advertisements by materially
contributing to the illegality of the deceptive content,
making it an information content provider of the content
at issue. Id. For this reason, the claim was not based on
content provided by another information content provider,
and accordingly, there was no CDA immunity. Id.
¶32 The concept of “neutral tools” provides a
helpful analytical framework for figuring out whether
a website’s design features materially contribute to the
unlawfulness of third-party content. A “neutral tool” in
the CDA context is a feature provided by an interactive
computer service provider that can “be utilized for proper
or improper purposes.” Goddard, 640 F. Sup. 2d at 1197
(citing Roommates.com, 521 F.3d at 1172). A defendant
who provides a neutral tool that is subsequently used by
a third party to create unlawful content will generally
not be considered to have contributed to the content’s
unlawfulness. See Roommates.com, 521 F.3d at 1169.
See also Herrick v. Grindr, LLC, 306 F. Supp. 3d 579,
589 (S.D.N.Y. 2018) (“An [interactive computer service
provider] may not be held liable for so-called ‘neutral
assistance,’ or tools and functionality that are available
equally to bad actors and the app’s intended users”)
(citations omitted).
¶33 Examples of such neutral tools include a blank
text box for users to describe what they are looking for
in a roommate, Roommates.com, 521 F.3d at 1173, a

19a
Appendix A
rating system that allows consumers to award businesses
between one and five stars and write reviews, Kimzey
v. Yelp! Inc., 836 F.3d 1263, 1270 (9th Cir. 2016), and a
social media website that allows groups to create profile
pages and invite members. Klayman v. Zuckerberg, 753
F.3d at 1358. All of these features can be used for lawful
purposes, so the CDA immunizes interactive computer
service providers from liability when these neutral tools
are used for unlawful purposes. See § 230(c)(1).
¶34 This is true even when an interactive computer
service provider knows, or should know, that its neutral
tools are being used for illegal purposes. In Carafano v.
Metrosplash.com, Inc., 339 F.3d 1119 (9th Cir. 2003), for
example, an actress sued a dating website after a third
party created a dating profile in her name and posted
her address. Id. at 1121. She asked the website operator
to remove the post and the operator initially refused,
although it was later taken down. Id. at 1122. Despite the
operator’s awareness of the unlawful content, the operator
was immune under the CDA because it was not responsible
for developing the content. Id. at 1125. Instead, it merely
provided a neutral tool that could be used for lawful or
unlawful purposes. Id.; see also Roommates.com, 521
F.3d at 1171 (explaining that in Carafano, “the website
provided neutral tools, which the anonymous dastard used
to publish the libel”).
¶35 Finally, the Ninth Circuit clarified in Roommates.
com that the difference between a neutral design feature
and the development of unlawful content is the potential
for lawful use. If a dating website had required users to

20a
Appendix A
enter their race, sex, and sexual orientation through the
same drop-down menus as used by Roommates.com, and
filtered results based on those characteristics, the dating
website would retain its CDA immunity. Id. at 1169. This is
because “[i]t is perfectly legal to discriminate along those
lines in dating.” Id. at 1169 n.23. In contrast, filters based
on these characteristics have no lawful use in the housing
context, so they are not “neutral tools” in the housing
context. Stated otherwise, the filters can be used only for
unlawful purposes in a housing context. Therefore, if a
website’s design features can be used for lawful purposes,
the CDA immunizes the website operator from liability
when third parties use them for unlawful purposes.
¶36 In this case, A rmslist did not develop the
content of Linn’s firearm advertisement, so Armslist is
not an information content provider with respect to the
advertisement. 9 Daniel’s argument is based primarily
on the assertion that Armslist’s design features make
it easier for prohibited purchasers to illegally obtain
firearms. She asserts that Armslist should have known,
actually knew, or even intended that its website would
facilitate illegal firearm sales to dangerous persons.
¶37 One obvious problem with Daniel’s argument
is that § 230(c)(1) contains no good faith requirement.
Therefore, the issue is not whether Armslist knew, or
should have known, that its site would be used by third
parties for illegal purposes. Instead, the issue is whether
9. To the extent Daniel argues that some of her claims are
not based on the content of the advertisement at all, this argument
is addressed in Section II. D.

21a
Appendix A
Armslist was an information content provider with respect
to Linn’s advertisement. Armslist.com’s provision of an
advertising forum and the related search functions are all
“neutral tools” that can be used for lawful purposes. Sales
of firearms by private sellers are lawful in Wisconsin.
Further, private sellers in Wisconsin are not required
to conduct background checks, and private sales are not
subject to any mandatory waiting period. Accordingly, the
option to search for offers from private sellers is a tool
that may be used for lawful purposes.
¶38 The remainder of the design features referenced
in Daniel’s complaint—lack of a “flag” option for illegal
activity, failing to require users to create an account,
failure to create restrictions on who may post or view
advertisements, and failing to provide sufficient legal
guidance to sellers—are voluntary precautions that the
CDA permits but does not require. See, e.g., Cohen v.
Facebook, Inc., 252 F. Supp. 3d 140, 158 (E.D.N.Y. 2017)
(suit against Facebook for failure to adequately screen
terrorist activity was barred by the CDA); Chi. Lawyers’
Comm., 519 F.3d at 670 (explaining that the CDA allows an
interactive computer service provider to be “indifferent”
to the content of third-party posts). Whether or not
Armslist knew illegal content was being posted on its site,
it did not materially contribute to the content’s illegality.
¶39 Daniel attempts to evade the CDA by asserting
that creators of armslist.com intended for the website to
make illegal firearm sales easier. This is an attempt to
distinguish this case from the litany of cases dismissing
suits against website operators who failed to screen

22a
Appendix A
unlawful content. As the First Circuit has recognized,
however, the allegation of intent is “a distinction without a
difference” and does not affect CDA immunity. Backpage.
com, 817 F.3d at 21.
¶40 The Ninth Circuit in Roommates.com explained
the dangers of allowing allegations of intent or implied
encouragement to defeat motions to dismiss in CDA cases:
[T]here will always be close cases where a
clever lawyer could argue that something the
website operator did encouraged the illegality.
Such close cases, we believe, must be resolved
in favor of immunity, lest we cut the heart
out of section 230 by forcing websites to face
death by ten thousand duck-bites, fighting off
claims that they promoted or encouraged—or
at least tacitly assented to—the illegality of
third parties. Where it is very clear that the
website directly participates in developing
the alleged illegality . . . immunity will be lost.
But in cases of enhancement by implication or
development by inference . . . section 230 must
be interpreted to protect websites not merely
from ultimate liability, but from having to fight
costly and protracted legal battles.
Roommates.com, 521 F.3d at 1174-75. Therefore, allowing
plaintiffs to escape the CDA by arguing that an interactive
computer service provider intended its neutral tools to be
used for unlawful purposes would significantly diminish
the protections offered by § 230(c)(1).

23a
Appendix A
¶41 The text and purpose of the CDA require us to
reject Daniel’s intent argument. Again, § 230(c)(1) contains
no good faith requirement; we analyze only whether
Armslist materially contributed to the unlawfulness of
third-party content such that it “developed” the content
as provided in § 230(f)(3). Because it did not, it is not an
information content provider with respect to the content;
therefore, Daniel’s claims depend on content provided only
by third parties.
D. Treatment as Publisher or Speaker
¶42 Section 230(c)(1) of the CDA prohibits only those
claims that would treat the interactive computer service
provider as the “publisher or speaker” of third-party
content. See, e.g., Barnes v. Yahoo!, Inc., 570 F.3d 1096,
1107 (9th Cir. 2009) (concluding that the CDA did not
bar a plaintiff’s promissory estoppel claim against an
interactive computer service provider who had promised
to remove unlawful third-party content and then failed
to do so, as the claim was not based on its publication of
unlawful content, but on a promise that induced reliance
and was not kept). If a plaintiff’s claims do not require the
interactive computer service provider to be treated as a
publisher or speaker, then the CDA does not immunize
the interactive computer service provider from suit.
¶43 However, courts do not merely ask whether the
plaintiff’s complaint calls the defendant a “publisher” or
“speaker.” “[W]hat matters is not the name of the cause
of action . . . what matters is whether the cause of action
inherently requires the court to treat the defendant as

24a
Appendix A
the ‘publisher or speaker’ of content provided by another.”
Barnes, 570 F.3d at 1101-02. In other words, “courts
must ask whether the duty that the plaintiff alleges the
defendant violated derives from the defendant’s status or
conduct as a ‘publisher or speaker.’” Id. at 1102. This rule
prevents plaintiffs from using “artful pleading” to state
their claims only in terms of the interactive computer
service provider’s own actions, when the underlying basis
for liability is unlawful third-party content published by
the defendant. Universal Commc’n Sys., Inc. v. Lycos,
Inc., 478 F.3d 413, 418 (1st Cir. 2007); see also Kimzey, 836
F.3d at 1266 (“[w]e decline to open the door to such artful
skirting of the CDA’s safe harbor provision.”).
¶44 In Doe v. Myspace, Inc., 528 F.3d 413 (5th Cir.
2008), for example, a child was sexually assaulted after
creating a profile on social media website myspace.com
and using the site to arrange a meeting with her assailant.
Id. at 416. The plaintiffs sued Myspace, asserting that
their claims were not based on Myspace’s publication of
third-party content, but only on its “failure to implement
basic safety measures to protect minors.” Id. at 419. The
Fifth Circuit rejected the plaintiffs’ attempt to artfully
plead their claims only in terms of Myspace’s own actions:
“[t]heir allegations are merely another way of claiming that
MySpace was liable for publishing the communications and
they speak to MySpace’s role as a publisher of online thirdparty-generated content.” Id. at 420. Stated otherwise,
the duty that MySpace allegedly violated—the duty to
implement safety measures to protect minors—derived
from the defendant’s status as the publisher or speaker
of content provided by another.

25a
Appendix A
¶45 The First Circuit came to a similar conclusion
in Backpage.com, LLC, 817 F.3d 12. Backpage.com was
a classified advertising website similar to Craigslist,
allowing third-party users to post goods or services for
sale in different categories. Id. at 16. Three minors became
victims of sex trafficking after third parties advertised
them on backpage.com’s “Adult Entertainment” section.
Id. at 17. The plaintiffs sued Backpage.com for “a course
of conduct that allegedly amounts to participation in
sex trafficking,” in violation of the Trafficking Victims
Protection Reauthorization Act of 2008 (TVPRA). Id. at 18.
The claims were based on the design features of backpage.
com, such as the lack of phone or email verification, the
stripping of metadata from uploaded photographs, and
the failure of the website’s automated filtering system
to sufficiently block prohibited terms. Id. at 17, 20. The
plaintiffs attempted to distinguish cases such as Myspace
by alleging that Backpage.com deliberately designed its
website to make sex trafficking easier. Backpage.com,
LLC, 817 F.3d at 17, 21.
¶46 The First Circuit held that the CDA barred the
plaintiffs’ claims as a matter of law. Id. at 24. Despite
the plaintiffs’ efforts to plead their claims only in terms
of Backpage.com’s acts, third-party content was “an
essential component of each and all of the appellants’
TVPRA claims.” Id. at 22. In other words, the duty
Backpage.com allegedly violated derived from its role as a
publisher. It did not affect the First Circuit’s analysis that
Backpage.com was alleged to have deliberately designed
its website to facilitate sex trafficking. As mentioned
earlier, § 230(c)(1) contains no good faith requirement, so

26a
Appendix A
“[s]howing that a website operates through a meretricious
business model is not enough to strip away [the CDA’s]
protections.” Id. at 29.
¶47 The court of appeals relied heavily on J.S. v. Vill.
Voice Media Holdings, L.L.C., 184 Wn.2d 95, 359 P.3d
714 (Wash. 2015). In J.S., which involved claims against
the operator of backpage.com on substantially the same
facts as in Jane Doe No. 1 v. Backpage.com, LLC, the
plaintiffs made the same argument as the Jane Doe No.
1 plaintiffs, asserting that backpage.com was deliberately
designed to facilitate sex trafficking. The Washington
Supreme Court concluded that the plaintiffs’ allegation of
intent was enough to escape the reach of the CDA. J.S.,
359 P.3d at 718.
¶48 J.S. is unpersuasive for two reasons. First,
Washington’s pleading standard is much different than
Wisconsin’s. Under Washington law, a complaint may be
dismissed for failure to state a claim “only if it appears
beyond a reasonable doubt that no facts exist that would
justify recovery.” Id. at 716 (citation omitted). Washington
courts may consider “hypothetical facts” that were not
pled. Therefore, a complaint may not be dismissed “if
any set of facts could exist that would justify recovery,”
whether such facts were pled in the complaint or not.
Hoffer v. State, 110 Wn.2d 415, 755 P.2d 781, 785 (Wash.
1988). For this reason, Washington courts may grant
motions to dismiss “only in the unusual case in which
plaintiff includes allegations that show on the face of the
complaint that there is some insuperable bar to relief.”
J.S., 359 P.3d at 716. This pleading standard is inconsistent

27a
Appendix A
with Wisconsin’s pleading standard. See Data Key
Partners, 356 Wis. 2d. 665, ¶21 (“a complaint must plead
facts, which if true, would entitle the plaintiff to relief.”).
¶49 More importantly, the Washington Supreme
Court ignored the text of the CDA, and the overwhelming
majority of cases interpreting it, by inserting an intent
exception into § 230(c)(1). The Washington Supreme
Court opined that “[i]t is important to ascertain whether
in fact Backpage designed its posting rules to induce sex
trafficking . . . because ‘a website helps to develop unlawful
content, and thus falls within the exception to section 230,
if it contributes materially to the alleged illegality of the
conduct.’” J.S., 359 P.3d at 718 (citing Roommates.com,
521 F.3d at 1168). Underlying this statement is the implicit
assumption that a website operator’s subjective knowledge
or intent may transform what would otherwise be a neutral
tool into a “material contribution” to the unlawfulness
of third-party content. As explained in Section II. C.,
however, this assumption has no basis in the text of § 230(c)
(1). The relevant inquiry, regardless of foreseeability or
intent, is “whether the cause of action necessarily requires
that the defendant be treated as the publisher or speaker
of content provided by another.” Backpage.com, LLC, 817
F.3d at 19 (citing Barnes, 570 F.3d at 1101-02).
¶50 In this case, all of Daniel’s claims against Armslist
require the court to treat Armslist as the publisher or
speaker of third-party content. Daniel’s negligence claim
asserts that Armslist had a duty to exercise “reasonable
care” in “facilitating” the sale of guns, and had a duty to
employ “sufficient questioning and screening” to reduce

28a
Appendix A
the risk of foreseeable injury to others. The complaint
alleges that Armslist breached this duty by designing
armslist.com to “facilitate” illegal gun sales, as well as by
failing to implement sufficient safety measures to prevent
the unlawful use of its website.
¶51 Daniel’s negligence claim is simply another way
of claiming that Armslist is liable for publishing thirdparty firearm advertisements and for failing to properly
screen who may access this content. The complaint alleges
that Armslist breached its duty of care by designing a
website that could be used to facilitate illegal sales, failing
to provide proper legal guidance to users, and failing to
adequately screen unlawful content. Restated, it alleges
that Armslist provided an online forum for third-party
content and failed to adequately monitor that content.
The duty Armslist is alleged to have violated derives from
its role as a publisher of firearm advertisements. This is
precisely the type of claim that is prohibited by § 230(c)
(1), no matter how artfully pled.
¶52 That Armslist may have known that its site could
facilitate illegal gun sales does not change the result.
Because § 230(c)(1) contains no good faith requirement,
courts do not allow allegations of intent or knowledge to
defeat a motion to dismiss. See, e.g., Roommates.com,
521 F.3d at 1174-75. Regardless of Armslist’s knowledge
or intent, the relevant question is whether Daniel’s
claim necessarily requires Armslist to be treated as the
publisher or speaker of third-party content. Because it
does, the negligence claim must be dismissed.

29a
Appendix A
¶53 The negligence per se claim is dismissed for
the same reason. Daniel alleges that Armslist “violated
federal, state, and local statutes, regulations, and
ordinances” by facilitating Haughton’s purchase of a
firearm. It is true that in Wisconsin, “‘one who violates a
criminal statute must be held negligent per se in a civil
action for damages based on such violation.’” Bennett
v. Larsen Co., 118 Wis. 2d 681, 692-93, 348 N.W.2d 540
(1984). As with the negligence claim, however, Daniel’s
only basis for alleging that Armslist violated any statute,
regulation, or ordinance requires Armslist to be treated
as the publisher or speaker of Linn’s post.
¶54 Similarly, the aiding and abetting tortious
conduct claim asserts that Armslist “aided, abetted,
encouraged, urged, and acquiesced in” Linn’s illegal sale
to Radcliffe by “brokering” the transaction. However,
there is no allegation that Armslist’s participation in
the transaction went beyond creating a forum for Linn’s
advertisement and failing to prohibit Radcliffe from
viewing the advertisement. This claim would therefore
require Armslist to be treated as the publisher of the
advertisement and must be dismissed.
¶55 The public nuisance claim is dismissed for the
same reason. Daniel asserts that Armslist “negligently,
recklessly, and/or intentionally facilitate[ed] the sale
of vast quantities of guns” to prohibited purchasers,
resulting in a “substantial and unreasonable interference
with the public’s health, safety, convenience, comfort,
peace, and use of public property and/or private property.”
The act or omission alleged to have created the nuisance

30a
Appendix A
is Armslist’s provision of a forum for third parties to post
and view firearms advertisements. In other words, the
duty Armslist is alleged to have violated derives from its
role as a publisher of third-party content. Accordingly,
the public nuisance claim is dismissed.
¶56 Daniel’s civil conspiracy claim does not allege
that Armslist conspired with Linn to sell a firearm to
a known prohibited purchaser; rather, it alleges that
Armslist, LLC’s members conspired with one another
to create a marketplace for illegal firearm sales, and
“advised, encouraged, or assisted” Armslist, LLC in
facilitating unlawful firearm sales. Again, the complaint
does not allege that Armslist’s role in facilitating these
illegal transactions went beyond creating a forum on which
third parties could post and view firearm advertisements.
As with the claims discussed above, the civil conspiracy
claim is another way of stating that Armslist is liable for
publishing third-party content. The civil conspiracy claim
is therefore dismissed.
¶57 All of Daniel’s remaining claims—negligent
infliction of emotional distress, wrongful death and
piercing the corporate veil—are dependent on the claims
we have discussed above. Because all of those claims have
been dismissed, Daniel’s claims for negligent infliction
of emotional distress, wrongful death and piercing the
corporate veil are dismissed as well. Accordingly, the
circuit court did not err when it granted Armslist’s motion
to dismiss

31a
Appendix A
III. CONCLUSION
¶58 We conclude that 47 U.S.C. § 230(c)(1) requires
us to dismiss Daniel’s complaint against Armslist.
Section 230(c)(1) prohibits claims that treat Armslist, an
interactive computer service provider, as the publisher
or speaker of information posted by a third party on its
website. Because all of Daniel’s claims for relief require
Armslist to be treated as the publisher or speaker of
information posted by third parties on armslist.com, her
claims are barred by § 230(c)(1). Accordingly, we reverse
the decision of the court of appeals and affirm the circuit
court’s dismissal of Daniel’s complaint.
By the Court.—The decision of the court of appeals
is reversed.
¶59 SHIRLEY S. ABRAHAMSON, J., withdrew from
participation before oral argument.

32a
Appendix A
¶60 ANN WALSH BRADLEY, J. (dissenting). The
majority views Daniel’s complaint as merely “artful
pleading,” disguising her true claims against Armslist. By
using the phrase “artful pleading,” the majority implicitly
acknowledges that the language of the complaint states
a claim. In essence, it posits, “I know that’s what it says,
but that’s not what it really means.”
¶61 What the majority would call “artful pleading,” I
would instead call the plain language of the complaint—
which at this stage of the proceedings, the law mandates
we accept as true.1
¶62 The complaint alleges that Zina Daniel Haughton
sought and received a restraining order against her
husband, Radcliffe Haughton, after he assaulted her and
threatened her life. Majority op., ¶3. Pursuant to the
restraining order, Radcliffe was prohibited from owning
a firearm for a period of four years. Id.; see Wis. Stat.
§ 941.29(1m)(f). 2
1. For purposes of our review, we must accept the allegations
of Daniel’s complaint as true. PRN Assocs. LLC v. State, DOA,
2009 WI 53, ¶27, 317 Wis. 2d 656, 766 N.W.2d 559; see Meyers v.
Bayer AG, Bayer Corp., 2007 WI 99, ¶81, 303 Wis. 2d 295, 735
N.W.2d 448 (Roggensack, J., dissenting) (citation omitted).
2. Wis. Stat. § 941.29(1m)(f) provides that a person who
possesses a firearm is guilty of a Class G felony if “[t]he person is
subject to an injunction issued under s. 813.12 or 813.122 . . . that
includes notice to the respondent that he or she is subject to the
requirements and penalties under this section and that has been
filed under s. 813.128(3g).”

33a
Appendix A
¶63 Within two days Radcliffe had a gun in his hands.
See Majority op., ¶3. And within three days, Radcliffe
went to Zina’s place of employment, and in front of her
daughter, shot and killed Zina. He also murdered two
other people, injured four others, and then shot and killed
himself. Id., ¶4.
¶64 Radcliffe quickly and easily, without undergoing
the inconvenience of a federal background check, procured
a gun using a website designed by Armslist. The complaint
avers that Armslist designed its website with the specific
purpose of skirting federal gun laws.
¶65 Nevertheless, the majority allows Armslist to hide
behind the Communications Decency Act (CDA), which
affords immunity to websites if a plaintiff’s claims treat
the website “as the publisher or speaker of any information
provided by another information content provider.” 47
U.S.C. § 230(c)(1). The allegations here, however, assert
liability for Armslist not based on content provided by
another. Rather, the allegations assert liability based on
design content Armslist alone created.
¶66 In my view, the majority errs in its interpretation
of the CDA by basing its decision not on the actual claims
pled in the complaint but on its own manufactured
interpretation of those claims. As a result, it fails to
recognize that here the design itself is the creation of
content. 3 Accordingly, I respectfully dissent.
3. Examples of design content are ubiquitous. One need look
no further than the design content of algorithms, used to influence

34a
Appendix A
I
¶67 The complaint alleges that Radcliffe was hastily
able to procure this gun by using Armslist.com, a website
that serves as an online marketplace for firearms.
Majority op., ¶¶1, 3. He focused his search for a gun
exclusively on Armslist “because he knew that he could
not acquire a firearm from a licensed dealer or from a
private seller in his community who knew him, and that
any contact with a legitimate seller could result in his
plan of illegally purchasing a firearm being revealed to
law enforcement authorities.”
¶68 Importantly, unlicensed private sellers are
not required under federal law to conduct background
checks on individuals attempting to purchase firearms.
See 18 U.S.C. §§ 922(t); 18 U.S.C. § 923(a). Allowing and
encouraging prohibited purchasers like Radcliffe to
circumvent the laws governing licensed firearm dealers,
Armslist incorporated a search function that allows
potential gun buyers to exclude licensed dealers from
their queries.
¶69 The day after the issuance of the restraining
order against him, Radcliffe took action to accomplish his
goal. After seeing on Armslist an advertisement for an
FNP-40 semiautomatic handgun and three high-capacity
magazines of ammunition, Radcliffe contacted the seller of
everything from where we shop to the sentencing of criminals. See
State v. Loomis, 2016 WI 68, 371 Wis. 2d 235, 881 N.W.2d 749. The
parameters of “content” extend beyond simply words on a page.

35a
Appendix A
the items, Devin Linn, using Armslist’s “contact” function.
The gun was listed for $500, a cost higher than what would
have been paid by a legitimate buyer for the same weapon
and ammunition. Radcliffe advised Linn in a phone call
that “he needed the firearm as soon as possible.”
¶70 Consistent with Radcliffe’s desire for a fast
transaction, he and Linn met the following morning.
Linn handed over the gun and ammunition, no questions
asked. Despite erratic behavior on Radcliffe’s part, Linn
sold Radcliffe the weapon without determining whether
he was a felon, whether he was subject to a restraining
order or whether he had been adjudicated mentally ill. He
made no inquiry whatsoever.
¶71 After Radcliffe took the weapon he purchased
from Linn and used it to kill Zina and two other people,
Zina’s daughter Yasmeen Daniel brought this lawsuit.
The theory of liability advanced focused on Armslist’s
conduct: “the Armslist Defendants designed Armslist.
com specifically to exploit and profit from the background
check exception for private sellers, to enable the sale of
firearms to prohibited and otherwise dangerous people,
and to enable illegal firearm sales, including sales that
avoid federal restrictions on interstate transfers, stateimposed waiting periods, and state-specific assault
weapon restrictions.”
¶72 Daniel further alleged that “[t]he Armslist
Defendants knew, or should have known, that the design
and architecture of Armslist.com creates a near-certainty
that prohibited purchasers will use the marketplace to buy

36a
Appendix A
firearms, and that the marketplace will be used for illegal
gun sales, including by unlicensed individuals that are
engaged in the business of selling firearms.” In Daniel’s
estimation, Armslist breached its duty to the public by
“[d]esigning Armslist.com to facilitate sales to prohibited
purchasers, such as Radcliffe Haughton.”
¶73 Armslist moved to dismiss the claims against it
based on CDA immunity. The circuit court granted the
motion to dismiss and the court of appeals unanimously
reversed.
¶74 Now reversing the court of appeals, the majority
determines that Armslist is immune from Daniel’s claims
pursuant to the CDA. Majority op., ¶2. In the majority’s
view, “all of Daniel’s claims for relief require Armslist
to be treated as the publisher or speaker of information
posted by third parties . . . ,” entitling it to CDA immunity.
Id. It further opines that “Daniel’s negligence claim is
simply another way of claiming that Armslist is liable for
publishing third-party firearm advertisements and for
failing to properly screen who may access this content.”
Id., ¶51.
II
¶75 This case presents a discrete question of statutory
interpretation. As the court of appeals in this case
correctly stated, “[t]he sole and limited issue is whether
the complaint seeks to hold Armslist liable on a basis
prohibited by the Act.” Daniel v. Armslist, LLC, 2018 WI
App 32, ¶28, 382 Wis. 2d 241, 913 N.W.2d 211.

37a
Appendix A
¶76 The statute at issue is the CDA, 47 U.S.C. § 230(c)
(1), which provides: “No provider or user of an interactive
computer service shall be treated as the publisher
or speaker of any information provided by another
information content provider.”
¶77 Another nearby provision states the preemptive
effect of the CDA: “Nothing in this section shall be
construed to prevent any State from enforcing any State
law that is consistent with this section. No cause of action
may be brought and no liability may be imposed under any
State or local law that is inconsistent with this section.” 47
U.S.C. § 230(e)(3). The CDA is a purveyor of immunity, but
it “was not meant to create a lawless no-man’s-land on the
Internet.” Fair Hous. Council of San Fernando Valley v.
Roommates.com, LLC, 521 F.3d 1157, 1164 (9th Cir. 2008).
¶78 Our inquiry is limited to whether the plaintiff’s
theory of liability (that Armslist designed its website to
facilitate illegal gun purchases) treats Armslist as the
speaker or publisher of Linn’s and Radcliffe’s posted
advertisements. The court of appeals, subscribing to a
plain language interpretation of the CDA, concluded that
“Congress limited immunity to a single circumstance:
when a theory of liability treats the website creator or
operator ‘as the publisher or speaker of any information
provided by another information content provider.’
Nothing in this language speaks more generally to website
design and operation.” Daniel, 382 Wis. 2d 241, ¶42.
¶79 In the court of appeals’ view, the content for which
Daniel seeks liability “is not ‘information provided by

38a
Appendix A
another information content provider.’ Rather, it is content
created by Armslist, and there is no language in the Act
immunizing Armslist from liability based on content that
it creates.” Id., ¶44.
¶80 I agree with the court of appeals’ unanimous
determination. A close reading of Daniel’s complaint
indicates that the complaint is not seeking to hold Armslist
liable for any content created by a third party. The
complaint does not allege that Armslist is liable due to the
advertisements posted by Radcliffe and Linn. Instead, it
alleges that Armslist is liable for its own content, i.e. the
design and search functionality of its website.
¶81 “Where it is very clear that the website directly
participates in developing the alleged illegality . . .
immunity will be lost.” Fair Hous. Council, 521 F.3d at
1174. Such is the allegation here.
¶82 As the court of appeals observed, this conclusion
is supported by the Washington Supreme Court’s
interpretation of the CDA in J.S. v. Village Voice Media
Holdings, LLC, 184 Wn.2d 95, 359 P.3d 714 (Wash. 2015).
In J.S., a victim of sex trafficking filed suit against
Backpage, a website that allowed hosted advertisements
offering sexual services. Id., ¶¶2-3. She alleged that the
website “is not immune from suit in part because its
advertisement posting rules were ‘designed to help pimps
develop advertisements that can evade the unwanted
attention of law enforcement, while still conveying the
illegal message.” Id., ¶3.

39a
Appendix A
¶83 The J.S. court observed that its determination
“ tur ns on whether Backpage merely hosted the
advertisements that featured J.S., in which case Backpage
is protected by CDA immunity, or whether Backpage also
helped develop the content of those advertisements, in
which case Backpage is not protected by CDA immunity.”
Id., ¶11. Backpage moved to dismiss, claiming CDA
immunity, but the court allowed J.S.’s claims to proceed.
¶84 In doing so, the J.S. court examined the allegations
of the complaint, and taking them as true, determined
that they “would show Backpage did more than simply
maintain neutral policies prohibiting or limiting certain
content.” Id., ¶12.4 Following the same mode of analysis
here, Armslist is not entitled to CDA immunity.
4. The majority’s attempt to distinguish and dismiss J.S. is
unpersuasive. See majority op., ¶¶48-49. First, the majority fails
to explain how using Wisconsin’s pleading standard instead of
Washington’s would change the result. Contrary to the majority’s
assertion, the J.S. court did not base its determination on any
“hypothetical facts.” Rather, it took the allegations of the complaint
as true, just as we do in Wisconsin. See J.S. v. Village Voice Media
Holdings, LLC, 359 P.3d 714, ¶12 (Wash. 2015) (“Viewing J.S.’s
allegations in the light most favorable to J.S., as we must at this
stage, J.S. alleged facts that, if proved true . . . “); Data Key
Partners v. Permira Advisers LLC, 2014 WI 86, ¶18, 356 Wis. 2d
665, 849 N.W.2d 693 (“When we review a motion to dismiss, factual
allegations in the complaint are accepted as true for purposes of
our review.”).
Second, the J.S. court did not establish an “intent exception”
to CDA immunity as the majority claims, but merely recognized
a distinction that is manifest in the CDA’s text: the distinction
between first-party created content and third-party created
content. See majority op., ¶49.

40a
Appendix A
¶85 Specifically, Daniel alleges in her complaint that
“[o]ne of the most prominent features of Armslist’s search
function is the ability to search for only private sellers,
thereby eliminating from search results any sellers
required to perform a background check.” No one but
Armslist is alleged to be responsible for this feature.
¶86 Daniel further asserts that this feature was
intentionally created “specifically to exploit and profit
from the background check exception for private sellers,
to enable the sale of firearms to prohibited and otherwise
dangerous people, and to enable illegal firearm sales,
including sales that avoid federal restrictions on interstate
transfers, state-imposed waiting periods, and statespecific assault weapon restrictions.” Again, no one but
Armslist is alleged to be responsible for this design. 5
5. Justice Wiggins’s concurrence in J.S. is particularly
insightful in examining the facts alleged in Daniel’s complaint in
this case. Narrowly interpreting the CDA, Justice Wiggins wrote:
Plaintiffs do not argue that Backpage.com necessarily
induces the posting of unlawful content by merely
providing an escort services category. Instead,
plaintiffs allege that Backpage.com deliberately
designed its posting rules in a manner that would
enable pimps to engage in sex trafficking, including
in the traff icking of minors, and to avoid law
enforcement. These factual allegations do not suggest
that Backpage.com is being treated as a “publisher
or speaker.”
J.S. v. Village Voice Media Holdings, 359 P.3d 714, ¶30 (Wash.
2015) (Wiggins, J., concurring); see also Mary Graw Leary, The
Indecency and Injustice of Section 230 of the Communications
Decency Act, 41 Harv. J. of Law & Pub. Pol’y 553, 587-591 (2018).

41a
Appendix A
¶87 The majority contends that “all of Daniel’s claims
for relief require Armslist to be treated as the publisher
or speaker of information posted by third parties . . . .”
Majority op., ¶2. Further, the majority claims that its
decision “prevents plaintiffs from using ‘artful pleading’ to
state their claims only in terms of the interactive computer
service provider’s own actions, when the underlying basis
for liability is unlawful third-party content published by
the defendant.” Majority op., ¶43.
¶88 But the majority’s approach requires the court
to ignore the literal words used in the complaint. In its
endeavor to brand Daniel’s complaint as “artful pleading,”
it ties itself in knots to avoid the actual claims Daniel
makes.
¶89 Such an approach deviates from established
practice that plaintiffs are the masters of their complaints.
See Caterpillar, Inc. v. Williams, 482 U.S. 386, 398-99,
107 S. Ct. 2425, 96 L. Ed. 2d 318 (1987). Rather than
applying the complaint’s plain language, the majority
manufactures an interpretation. Embarking upon a legally
unsupportable approach, it fails to recognize that here
the design itself is content and ignores the distinction
between first-party created content and third-party
created content.
¶90 The complaint sets forth that Daniel is seeking
liability against Armslist for Armslist’s conduct only. We

42a
Appendix A
should take the complaint at face value.6 Accordingly,
Armslist is not entitled to CDA immunity.
¶91 For the foregoing reasons, I respectfully dissent.

6. Further, I observe that my conclusion is not at odds with
the bulk of CDA jurisprudence. For example, in Zeran v. America
Online, Inc., 129 F.3d 327, 330 (4th Cir. 1997), a seminal CDA case,
the Fourth Circuit determined that “§ 230 precludes courts from
entertaining claims that would place a computer service provider
in a publisher’s role. Thus, lawsuits seeking to hold a service
provider liable for its exercise of a publisher’s traditional editorial
functions—such as deciding whether to publish, withdraw,
postpone or alter content—are barred.”
Zeran and its progeny are not disturbed by my conclusion.
My analysis and Zeran peacefully coexist because they deal with
different factual allegations—liability for third party content vs.
liability for first party content.

43a
B OF THE COURT
APPENDIX B — Appendix
DECISION
OF APPEALS OF THE STATE OF WISCONSIN,
FILED APRIL 19, 2018
COURT OF APPEALS OF
THE STATE OF WISCONSIN
Appeal No. 2017AP344
Cir. Ct. No. 2015CV8710
YASMEEN DANIEL, INDIVIDUALLY, AND AS
SPECIAL ADMINISTRATOR OF THE ESTATE OF
ZINA DANIEL HAUGHTON,
Plaintiff-Appellant,
TRAVELERS INDEMNITY COMPANY OF
CONNECTICUT, AS SUBROGEE
FOR JALISCO’S LLC,
Intervening Plaintiff,
v.
ARMSLIST, LLC, AN OKLAHOMA LIMITED
LIABILITY COMPANY, BRIAN MANCINI
AND JONATHAN GIBBON,
Defendants-Respondents,
BROC ELMORE, ABC INSURANCE CO., THE
FICTITIOUS NAME FOR AN UNKNOWN
INSURANCE COMPANY, DEF INSURANCE CO.,
THE FICTITIOUS NAME FOR AN UNKNOWN
INSURANCE COMPANY AND ESTATE OF
RADCLIFFE HAUGHTON, BY HIS SPECIAL
ADMINISTRATOR JENNIFER VALENTI,
Defendants,

44a
Appendix B
PROGRESSIVE UNIVERSAL
INSURANCE COMPANY,
Intervening Defendant.
November 13, 2017, Submitted on Briefs;
April 19, 2018, Decided;
April 19, 2018, Filed
APPEAL from an order of the circuit court for
Milwaukee County: GLENN H. YAMAHIRO, Judge.
Reversed.
Before Lundsten, P.J., Blanchard, and Fitzpatrick, JJ.
¶1 BLANCHARD, J. This is a tort action arising
from a mass casualty shooting at a salon in Brookfield,
Wisconsin. It is alleged that the shooter, Radcliffe
Haughton, bought the firearm and ammunition he used
in the shooting after responding to a “for sale” post that
appeared on a website, Armslist.com. Yasmeen Daniel,
the daughter of shooting victim Zina Daniel Haughton
and the administrator of her mother’s estate, has filed
multiple tort claims against Armslist, LLC, which created
and operated Armslist.com.1 Significant to Daniel’s claims,
1. Yasmeen Daniel brought this action both individually and as
administrator of the estate of Zina Daniel Haughton. We refer to her
in both capacities as “Daniel.” Daniel also brought claims against
Radcliffe’s estate and the person who sold the gun and ammunition
to Radcliffe. We do not address those claims in this appeal.
Separately, we note that Daniel has also sued two members of
Armslist, LLC. We will refer to the LLC and its two members as

45a
Appendix B
when Radcliffe purchased the firearm and ammunition,
he was prohibited by a state court domestic violence
injunction from possessing a firearm. 2
¶2 The circuit court dismissed Daniel’s complaint
against Armslist in its entirety, based on the federal
Communications Decency Act of 1996 (“the Act”). See 47
U.S.C. § 230(c)(1) and (e)(3) (October, 1998). As pertinent
here, the Act creates what Armslist argues is immunity
from any “liability” that “may be imposed under any State
or local law” for a “provider” of “an interactive computer
service” under a theory of liability that “treat[s]” the
provider “as the publisher or speaker of any information
provided by another information content provider.” See id.
The court concluded that Armslist has immunity under
this provision of the Act because Daniel alleges only that
Armslist “passively displays content that [was] created
entirely by third parties” and “simply maintain[ed] neutral
policies prohibiting or eliminating certain content,” and
because Daniel “fails to allege facts which establish ...
that Armslist [was] materially engaged in creating or
developing the illegal content on its page.”
¶3 We reverse the order dismissing the complaint as
to the Armslist defendants. Applying a plain language
“Armslist” or the “Armslist defendants.” For purposes of this appeal
neither side suggests that there is any potential difference in liability
among Armslist defendants, and we generally treat them in an
identical manner. Our decision reversing dismissal of the complaint
applies to all Armslist defendants.

2. We refer to Radcliffe and Zina by their first names because
they shared a last name.

46a
Appendix B
interpretation to the Act, we agree with Daniel that the
allegations in the complaint, which are that Armslist
used website design features to facilitate illegal firearms
purchases, do not seek to hold Armslist liable on a theory
prohibited by the Act. Stated in the terms used in the
Act, we conclude that the allegations do not seek to hold
Armslist liable under a theory of liability that “treat[s]”
Armslist “as the publisher or speaker of any information
provided by another information content provider,” which
is the protection at issue here that the Act provides. We
reject Armslist’s argument because the Act provides
immunity to website operators, such as Armslist, only
when the allegations treat the website as the publisher
or speaker of third-party content, and the Act does not
protect a website operator from liability that arises from
its own conduct in facilitating user activity, as is the case
here.
¶4 There is a separate issue, which does not involve
immunity under the Act, namely, the court’s dismissal of
a claim of negligence per se. On this issue, we agree with
Daniel that, as Armslist effectively concedes, the circuit
court erred in dismissing this claim.
¶5 Accordingly, we reverse dismissal of the complaint
as to the Armslist defendants, including the dismissal of
the negligence per se claim, and remand.
BACKGROUND
¶6 The following are facts that are alleged or which
reasonably can be inferred from the complaint in favor of

47a
Appendix B
Daniel. As discussed below, we must accept the facts and
reasonable inferences as true for purposes of this appeal.
Allegations Relating To Firearms Sales In General
¶7 Federally licensed firearms dealers are required
to access and consider certain background information
regarding potential buyers in order to prevent sales to
individuals prohibited by law from possessing firearms.
See Wis. Stat. § 175.35(2) (2015-16); 18 U.S.C. § 922(t)(1). 3
It is unlawful to sell a firearm to certain persons, including
those who have domestic abuse injunctions entered against
them. See Wis. Stat. § 941.29(4); 18 U.S.C. § 922(d). We
will sometimes refer to firearms sales to persons who are
legally prohibited from possessing them as “prohibited
sales,” and to the purchasers as “prohibited purchasers.”
¶8 In contrast to federally licensed dealers, unlicensed
“private sellers”—meaning persons not “engaged in the
business of selling firearms”—are not required under
federal law to conduct background checks. We follow the
lead of the parties here, consistent with many authorities,
in using the phrases “private sellers” and “private sales”
to refer to firearms sales by persons who are not engaged
in the business of selling firearms and not licensed by the
federal government as firearms dealers. Private sales are
attractive to potential buyers who fear that they will fail
a background check.
3. All references to the Wisconsin Statutes are to the 2015-16
version unless otherwise noted. All references to the United States
Code are to the current version unless otherwise noted.

48a
Appendix B
¶9 To summarize the basics of the allegations, then,
private sales without background checks are not per se
unlawful but are attractive to prohibited persons, and
prohibited persons violate the law by obtaining firearms
from anyone.
¶10 The complaint further alleges that statistics
show that firearms sold through private sales are more
frequently transferred to prohibited persons than
are firearms transferred in federally licensed sales.
Specifically, the complaint alleges that published studies
prove that private sellers and prohibited purchasers are
attracted to use Armslist.com by its permitted anonymity
and its various filtering features, which make it easier for
buyers to avoid having to submit to a background check
and to minimize the collection of evidence that could be
used to hold them accountable for later unlawful acts
committed with an identified firearm.
¶11 In addition, the complaint alleges that private
sales facilitated by online communications have been
linked to illegal firearms trafficking, to firearms sales to
minors, and to mass casualty shootings. As a result, the
complaint alleges, major classified advertising websites,
such as eBay, Craigslist, and Amazon.com, prohibit posts
seeking to buy or sell firearms.
Allegations Relating To The Armslist.com Website
¶12 After several major websites prohibited users from
using posts to facilitate firearms transactions, Armslist
saw a commercial opening in this area and created

49a
Appendix B
Armslist.com. Through the website, potential buyers and
sellers contacted one another, either by clicking on a link
within the website or by using the contact information
provided by the other party through the website.
¶13 The complaint alleges that design and operational
features of Armslist.com, which we now summarize,
affirmatively “encouraged” transactions in which
prohibited purchasers acquired firearms:
• Made private sales easy; ability to limit
searches. Sellers could indicate on the
website whether they were “premium
vendors” (i.e., federally licensed firearms
dealers) or instead “private sellers.”
Potential buyers were allowed to identify
preferences for private sellers and to limit
their search results to private sellers.
• No f lagging of “criminal” or “illegal”
content. Users were allowed to “flag” ads
to invite “review and policing” by Armslist,
and Armslist used these “flags” to delete
certain posts and to prohibit certain users
from posting on Armslist.com. However,
the website expressly prevented users from
flagging content as purportedly criminal or
illegal.
• Warning against illegality, but no specific
legal guidance. Armslist.com contained a
warning that users must obey the law and

50a
Appendix B
asked users to certify that they would not
use the website for “any illegal purpose.”
However, it provided no guidance on specific
laws governing firearm sales or the care
that should be used in conducting such sales.
• No registration requirement; flagging of
registered accounts. Users were not required
to “register” an account with Armslist.com,
“thereby encouraging anonymity.” Armslist
prominently displayed a statement on each
post indicating whether the poster had a
“registered” or “unregistered” account.
• No buyer restrictions; no waiting period
for private sales. “Armslist does not contain
any restrictions for prospective buyers, and
its website is designed to enable buyers
to evade state waiting period and other
legal requirements.” This “waiting period”
reference is based on a Wisconsin law, in
place at the time of the Linn-Radcliffe
transaction, that required federally licensed
firearms dealers to wait 48 hours after
receiving a “proceed” response from
the backg round check system before
transferring the firearm, while private sales
were not subject to this requirement.
¶14 In contrast, the complaint alleges, a different
website for firearms transactions requires its users to
register before buying a firearm and to take delivery

51a
Appendix B
only through a licensed dealer, which greatly minimizes
the chances of firearms transfers to prohibited persons.
¶15 The complaint includes the allegation that “the
average number of want ads specifically asking to buy from
a private seller on Armslist[.com] is 240% higher in states
that do not require background checks on those sales as
compared to states that require [background] checks
on private, stranger-to-stranger sales.” In particular
Wisconsin, which did not require a background check for
a private sale, “had the fifth highest number of Armslist
[.com] want ads seeking to buy from private sellers.”
¶16 The complaint cites a report that allegedly
concludes that 54 percent of Armslist.com users selling
firearms are willing to sell to a person they believe could
not pass a background check, and 67 percent of private
online sellers in Wisconsin are willing to sell to a person
they believe could not pass a background check.
¶17 In sum, Daniel’s theory of liability is that, through
its design and operation of website features, Armslist’s
actions were a cause of the injuries to Daniel.
Allegations Relating To The Firearm Sale To Radcliffe
¶18 The complaint alleges that police arrested
Radcliffe after he assaulted Zina in their home, then
confronted her with a knife in the parking lot of the salon
where she worked, and slashed the tires of her car. Zina
successfully sought an injunction from a circuit court
that prohibited Radcliffe from contacting Zina and from

52a
Appendix B
possessing a firearm for four years. This made Radcliffe
a prohibited person under state and federal law. See Wis.
Stat. § 941.29(1m)(f); 18 U.S.C. § 922(g)(8).
¶19 Thereafter, Radcliffe searched for a firearm
to buy, exclusively using Armslist.com. Radcliffe used
an Armslist.com function that allowed him to exclude
licensed dealers in his search. Radcliffe found a post by
private seller Devin Linn that offered a semiautomatic
handgun and three high-capacity magazines for sale.
Radcliffe arranged, through communications with Linn
on the website, to buy the firearm and ammunition in an
all-cash transaction with Linn in a fast food restaurant
parking lot. The next day, Radcliffe used this firearm and
ammunition to fatally shoot four people, including Zina
and himself, and to wound four others.
¶20 Daniel alleges multiple state law causes of action
against the Armslist defendants, each arising from the
allegations summarized above.4 The circuit court granted
4. Briefly in the text and in the second paragraph of this
footnote we address two specific claims. We address a negligence per
se claim later in the text and we address a claim based on alter-ego
liability in the next paragraph of this footnote. Otherwise, however,
we need not separately address the tort claims in Daniel’s complaint,
because Armslist does not argue that we should distinguish among
the claims in resolving the primary issue involving potential
immunity under the Act.
Regarding Daniel’s request to pierce the corporate veil of
Armslist, LLC, through a claim based on alter-ego liability, we
interpret the circuit court to have responded to Armslist’s request to
dismiss this claim by indicating that the request was premature. The

53a
Appendix B
a motion to dismiss filed by the Armslist defendants on
the ground that the Act bars Daniel’s claims against
the Armslist defendants. Separately, the circuit court
dismissed the negligence per se claim based on a 1979
decision of this court. Daniel appeals.
DISCUSSION
¶21 The primary issue presented is whether Daniel’s
claims fail on Armslist’s motion to dismiss because the
Armslist defendants are immune from liability for state
law claims under the federal Communications Decency
Act. Before addressing the primary issue, we briefly
address a separate circuit court decision, namely, to
dismiss one cause of action, negligence per se, which we
conclude was an error resulting from a misapplication of
case law. See State v. Walker, 2008 WI 34, ¶13, 308 Wis.
court noted that there could be no grounds to pierce the corporate
veil before Daniel first obtains a judgment against Armslist, LLC, in
this case, which may not come to pass. At least based on the limited
briefing with which we have been provided, this issue does not appear
ripe, and we do not address this topic further.
One additional note on the status of claims and parties. Our
holding that there is no immunity under the Act based on the
allegations in the complaint reverses the circuit court’s ruling, if
it was intended as such, that individual defendants Mancini and
Gibbon must be dismissed from the complaint. However, we interpret
the court to have stated only that the individual defendants should
be dismissed for the same reason that the complaint should be
dismissed, based on immunity under the Act, and Armslist takes
a position consistent with this interpretation. Because we hold that
the Act does not apply, Mancini and Gibbon remain in the case at
this juncture.

54a
Appendix B
2d 666, 747 N.W.2d 673 (applications of case law present
questions of law that are reviewed de novo on appeal).
¶22 The circuit court applied a 1979 decision of this
court to dismiss the negligence per se claim. That case,
Olson v. Ratzel, 89 Wis. 2d 227, 238, 244-250, 278 N.W.2d
238 (Ct. App. 1979), arguably supports the circuit court’s
decision, because it explains that, while the general rule
is that a violation of a criminal statute is negligence per
se, various factors created reasonable doubt that criminal
statutes involving firearms handling or possession
could constitute negligence per se. Regardless whether
Olson supports the circuit court’s decision, Daniel
correctly points out that the portion of the opinion that
the circuit court relied on is no longer the law, if it ever
was. Our supreme court, in 1951 and again in 1984, has
stated unambiguously that the following is the “rule” in
Wisconsin: “‘one who violates a criminal statute must be
held negligent per se in a civil action for damages based on
such violation.’” See Bennett v. Larsen Co., 118 Wis. 2d 681,
692-93, 348 N.W.2d 540 (1984) (quoting McAleavy v. Lowe,
259 Wis. 463, 475, 49 N.W.2d 487 (1951)). Discussion in
both McAleavy and Bennett leave no doubt that the court,
in each opinion, intended to adopt this broad unqualified
rule. And, as Daniel also points out, when a decision of
this court conflicts with a decision of the supreme court,
the latter controls. See Cook v. Cook, 208 Wis. 2d 166,
189, 560 N.W.2d 246 (1997). Moreover, Armslist does not
address this Bennett-based argument in its response brief,
effectively conceding the point. Accordingly, we reverse
the circuit court’s decision dismissing the negligence per
se claim.

55a
Appendix B
¶23 We now turn to the primary issue, immunity
under the Act.
Legal Standards
¶24 A complaint “fails to state a claim upon which
relief may be granted if the defendant is immune from
liability for the activity alleged in the complaint.” See
Energy Complexes, Inc. v. Eau Claire Cty., 152 Wis.
2d 453, 463, 449 N.W.2d 35 (1989) (citation omitted). 5
Preemption of state law tort liability under the Act can
“support a motion to dismiss if the statute’s barrier to
suit is evident from the face of the complaint.” Ricci v.
Teamsters Union Local 456, 781 F.3d 25, 28 (2d Cir. 2015).
¶25 Our standard of review and the substantive
standard for consideration of a motion to dismiss for
failure to state a claim for which relief may be granted
are well established:
Whether a complaint states a claim upon which
relief can be granted is a question of law for our
independent review; ....
5. At least one court has questioned whether it is appropriate
to use the term “immunity” in connection with the Act. See Chicago
Lawyers’ Comm. for Civil Rights Under Law, Inc. v. Craigslist, Inc.,
519 F.3d 666, 669-70 (7th Cir. 2008). But Armslist has raised the
affirmative defense of “immunity” in support of its motion to dismiss,
and both parties on appeal use the term without qualification. We
see no problem in using the term “immunity” to describe the result
that Armslist seeks under the Act, so long as the term is correctly
limited to the narrow scope of immunity dictated by the language
of the Act.

56a
Appendix B
When we review a motion to dismiss, factual
allegations in the complaint are accepted as
true for purposes of our review....
....
“A motion to dismiss for failure to state a claim
tests the legal sufficiency of the complaint.”
Upon a motion to dismiss, we accept as true
all facts well-pleaded in the complaint and the
reasonable inferences therefrom.
Data Key Partners v. Permira Advisers LLC, 2014 WI
86, ¶¶17-19, 356 Wis. 2d 665, 849 N.W.2d 693 (citations
omitted). Thus, here we must accept all allegations of the
complaint as true, and we look to the face of the complaint
to determine whether a motion to dismiss is warranted
based on the pertinent provisions of the Act.
¶26 “[S]tatutory interpretation ‘begins with the
language of the statute.’” State ex rel. Kalal v. Circuit
Court for Dane Cty., 2004 WI 58, ¶45, 271 Wis. 2d 633,
681 N.W.2d 110 (quoted source omitted). “If the meaning
of the statute is plain, we ordinarily stop the inquiry.” Id.
We interpret a statute “in the context in which it is used;
not in isolation but as part of a whole.” Id., ¶46.
Analysis
¶27 We begin with two general observations. First,
our task has been complicated, as we think was also the
case for the circuit court, by the fact that the parties fail to

57a
Appendix B
provide us with developed arguments directly addressing
the language of the Act. While both sides reference
statutory language and Daniel makes brief attempts to
analyze it, both sides primarily base their arguments on
their interpretations of case law from other jurisdictions
addressing the Act. Because this case presents an issue
of first impression in Wisconsin and there is no guidance
from the United States Supreme Court, our focus is on
the language of the Act as it applies to Daniel’s specific
allegations. As explained below, we apply a plain meaning
interpretation. While our interpretation of the Act is
consistent with some of the authority the parties discuss,
the case law that Armslist relies on does not significantly
aid in the analysis, as discussed below.6
¶28 Our second observation is that the issue here is
not whether Daniel sufficiently alleges negligence or any
other claim in the complaint. The sole and limited issue is
whether the complaint seeks to hold Armslist liable on a
basis prohibited by the Act. As we explain, the pertinent
language in the Act prohibits only theories of liability that
treat Armslist as the publisher or speaker of the content of
Linn’s or Radcliffe’s posts on the website, and we conclude
that the complaint here relies on no such theory.
6. Because there appears to be no United States Supreme
Court or Supreme Court of Wisconsin interpretation of the pertinent
provisions of the Act, we consider the persuasive value of authority
from various federal and state courts, some of which we summarize
below, which have interpreted the Act’s pertinent provisions in other
cases involving similar allegations. See Klein v. Board of Regents,
Univ. of Wisconsin Sys., 2003 WI App 118, ¶13, 265 Wis. 2d 543, 666
N.W.2d 67 (“we are bound only by the opinions of the United States
Supreme Court on questions of federal law”) (citation omitted).

58a
Appendix B
¶29 Having provided those general observations,
we now briefly quote the key provisions of the Act, then
summarize the arguments of the parties, before turning
to the details of the Act, including our interpretation of
the Act’s pertinent provisions and our conclusion that,
with respect to the allegations in the complaint, the Act
does not apply to confer immunity.
¶30 The following are the key provisions of the Act:
(1) “No provider or user of an interactive computer
service shall be treated as the publisher or speaker of
any information provided by another information content
provider,” 47 U.S.C. § 230(c)(1); and (2) “[n]o cause of action
may be brought and no liability may be imposed under
any State or local law that is inconsistent with [§ 230].”
47 U.S.C. § 230(e)(3). We will sometimes call the first
clause the shall-not-be-treated clause and the second the
immunity clause, while generally using the term “the Act”
to refer to their combined meaning.
¶31 We begin, brief ly, with the meaning of the
immunity clause. Its wording is unambiguous for current
purposes and provides for immunity (“no cause of action
may be brought and no liability may be imposed”) if the
conditions of the shall-not-be-treated clause are met.
Daniel does not argue to the contrary.
¶32 We turn to the shall-not-be-treated clause,
beginning with the topic of interpretative rules that we are
to use to determine the scope of the immunity it provides.
Daniel makes an argument, to which Armslist does not
respond, based on a presumption against preemption

59a
Appendix B
doctrine. We agree with Daniel that this doctrine applies
here to create an exacting standard in determining the
scope of immunity.
¶33 Explaining further, even where, as here, Congress
has expressly provided for some degree of preemption
of state law, when courts seek to “identify the domain
expressly pre-empted,” we are to apply a “presumption
against preemption.” Medtronic, Inc. v. Lohr, 518 U.S. 470,
484, 494, 116 S. Ct. 2240, 135 L. Ed. 2d 700 (1996). In other
words, the existence of an express federal preemption
provision (as reflected in the immunity clause here) “does
not immediately end the inquiry because the question of
the substance and scope of Congress’[s] displacement of
state law still remains.” Altria Grp., Inc. v. Good, 555 U.S.
70, 76, 129 S. Ct. 538, 172 L. Ed. 2d 398 (2008). Moreover,
when Congress legislates in a field traditionally occupied
by the states (as here, by creating immunity from state
tort actions under a specified circumstance), courts are to
assume that powers historically exercised by the states
are “‘not to be superseded by the Federal Act unless
that [was] the clear and manifest purpose of Congress.’”
Id., at 77 (quoted source omitted); see also Gregory v.
Ashcroft, 501 U.S. 452, 460, 111 S. Ct. 2395, 115 L. Ed.
2d 410 (1991) (“[I]t is incumbent upon the [] courts to be
certain of Congress’[s] intent before finding that federal
law overrides” the usual constitutional balance of federal
and state powers.) (quoted source omitted). After Daniel
asks us to apply this doctrine, Armslist has no response.
Indeed, the word preemption does not appear in Armslist’s
briefing. Thus, we proceed with our analysis bearing in
mind the presumption against preemption.

60a
Appendix B
¶34 Armslist relies on case law that effectively
construes the Act to provide “broad immunity” for
claims that rest on allegations of activities by creators
and operators of websites that those courts deem to be
“publishing” activities. Armslist contends that, under the
construction of the Act found in this case law, protected
publishing activities include the allegations here involving
design and operation of Armslist’s website. As we discuss
more fully below, Armslist quotes case law that employs
terminology not found in the Act and interprets the Act
to provide immunity to websites whenever they act as
“platforms” for the speech of third parties or whenever
they exercise “editorial functions.” Based on this case
law authority, Armslist argues, the complaint must be
dismissed, because it seeks to hold Armslist liable for
the publishing activities of using design and operation
features of its website to encourage the type of third-party
information content that caused the harm at issue.
¶35 For her part, Daniel points to case law that more
narrowly construes the Act. She contends that her theory
of liability against Armslist does not treat Armslist as the
speaker or publisher of information content provided by
Linn and Radcliffe through Armslist.com, but instead is
based on a separate theory of liability. To repeat, Daniel
argues, and the complaint alleges, that Armslist is liable
for designing and operating its website in a way that
encouraged prohibited sales, which she contends was a
substantial factor in causing the shootings. These design
and operational features allegedly encouraged “private,
anonymous, illegal gun purchases,” such as Radcliffe’s
purchase from Linn, which “enabled [Radcliffe] to

61a
Appendix B
circumvent” a then-operative Wisconsin law mandating
a 48-hour waiting period for federally licensed sales. The
theory of liability, then, is that Armslist designed and
operated Armslist.com so as to be a cause of the injuries
alleged in the complaint.
¶36 We do not consider Armslist’s case-law-based
arguments to be persuasive, because the cases Armslist
relies on do not, in our view, come to grips with the plain
language in the Act. Rather, we agree with Daniel’s
argument that her theory of liability is not covered by the
shall-not-be-treated clause in the Act, because her liability
theory is not based on treating Armslist as the publisher
or speaker of information content created by third parties.
¶37 In order to explain that conclusion, we now walk
through in more detail the provisions in the shall-notbe-treated clause: “No provider or user of an interactive
computer service shall be treated as the publisher
or speaker of any information provided by another
information content provider.” See 47 U.S.C. § 230(c)(1).
¶38 There is no dispute that Armslist.com was an
“interactive computer service” provider. The Act defines
the phrase “interactive computer service” expansively:
“any information service, system, or access software
provider that provides or enables computer access by
multiple users to a computer server.” 47 U.S.C. § 230(f)(2).
¶39 The Act does not define the phrase, “shall be
treated as the publisher or speaker of any information
provided by another information content provider.” 47

62a
Appendix B
U.S.C. § 230(c)(1). The terms “publisher” and “speaker” do
not appear to have any specialized or technical meaning,
but they are without doubt directly linked with the phrase
“of any information.” For this reason, we conclude that the
only reasonable interpretation of this language is that it
is a reference to the specific act of publishing or speaking
particular information, namely, information provided
by another information content provider. We do not see
any distinction that could matter, at least in the context
of this case, between being treated as “the publisher”
of information and being treated as “the speaker” of
information. It appears that the terms publisher and
speaker are both used simply to convey the notion that
liability may not be based on treating a provider as the
disseminator or propagator of the described information.
¶40 This brings us to the last pertinent phrase in
the shall-not-be-treated clause: “provided by another
information content provider.” 47 U.S.C. § 230(c)(1). The
Act defines “information content provider” broadly as “any
person or entity that is responsible, in whole or in part,
for the creation or development of information provided
through the Internet or any other interactive computer
service.” § 230(f)(3). We perceive no dispute that Linn
and Radcliffe, when they allegedly used the website to
initiate and conduct portions of their transaction, were
each “another information content provider.”
¶41 Pulling together these observations, we can
see that, in order to prevail, Armslist must show that
the claims here treat Armslist as liable because it is
an entity that published or spoke information provided

63a
Appendix B
by Linn or Radcliffe, and Armslist must overcome the
presumption against preemption.7 Armslist makes no such
showing. Armslist points to nothing in the complaint that
attempts to hold Armslist liable as a publisher or speaker
of the content provided by Radcliffe and Linn. Instead,
Armslist contends that the Act protects the activity of
designing and operating a website, but without tying this
interpretation to language in the Act. Stated differently,
Armslist effectively ignores the Act’s phrase “publisher
or speaker of any information provided by another.”
¶42 If the goal of Congress were to establish the sort
of broad immunity urged by Armslist, that is, immunity
for all actions of websites that could be characterized as
publishing activities or editorial functions, Congress could
have used any number of formulations to that end. Instead,
Congress limited immunity to a single circumstance: when
a theory of liability treats the website creator or operator
“as the publisher or speaker of any information provided
by another information content provider.” Nothing in this
language speaks more generally to website design and
operation.

7. At least at a general level, this formulation is consistent
with one used by federal circuit courts of appeal, namely, that the
Act provides immunity if the following criteria are met: (1) the
defendant “is a ‘provider or user of an interactive computer service’;
(2) the plaintiff’s claim is based on ‘information provided by another
information content provider’; and (3) the claim would treat [the
defendant] ‘as the publisher or speaker’ of that information.” See,
e.g., Universal Commc’n Sys., Inc. v. Lycos, Inc., 478 F.3d 413, 418
(1st Cir. 2007) (quoting 47 U.S.C. § 230(c)(1)).

64a
Appendix B
¶43 As noted above, Armslist’s argument consists
almost entirely of strings of references to authority that
it considers persuasive. We address case law below. But
first, we address what we understand to be the minimal
argument Armslist makes that is not tied to case law.
¶44 Armslist contends that “all of [the] ... alleged
website defects are content-based, related either to the
way information is presented on the site or to who is
allowed to use it.” It may be fair to characterize all of
the operational and design features alleged by Daniel
to be in some sense “content-based.” However, in this
respect, the content is not “information provided by
another information content provider.” Rather, it is content
created by Armslist, and there is no language in the Act
immunizing Armslist from liability based on content that
it creates.
¶45 Our interpretation of the Act is consistent with
authority that we consider to be persuasive. See Barnes
v. Yahoo!, Inc., 570 F.3d 1096, 1100, 1105 (9th Cir. 2009)
(“[l]ooking at the text [of the Act], it appears clear that
[it does not] declare[] a general immunity from liability
deriving from third-party content .... It is the language of
the statute that defines and enacts the concerns and aims
of Congress; a particular concern does not rewrite the
language.”); Doe v. Internet Brands, Inc., 824 F.3d 846,
853 (9th Cir. 2016) (cautioning against applying the Act
“beyond its narrow language and its purpose.” “Congress
has not provided an all purpose get-out-of-jail-free card
for businesses that publish user content on the internet”
even when a claim “might have a marginal chilling effect

65a
Appendix B
on internet publishing businesses.”). As Barnes explains,
courts are to consider “whether the cause of action
inherently requires the court to treat the defendant as
the ‘publisher or speaker’ of content provided by another.”
Barnes, 570 F.3d at 1102.
¶46 We note in particular the opinion of the Washington
Supreme Court in J.S. v. Village Voice Media Holdings,
L.L.C., 184 Wn.2d 95, 359 P.3d 714 (Wash. 2015). In J.S.,
the majority concluded that allegations that the website
at issue developed and posted guidelines and content
rules that facilitated child prostitution were sufficient
to withstand a motion to dismiss based on the Act. 359
P.3d at 717-18. In a concurring opinion, Justice Wiggins
summarizes the position of courts that have “specifically
rejected the subsection 230(c)(1) defense when the
underlying cause of action does not treat the information
content provider as a ‘publisher or speaker’ of another’s
information.” Id. at 723-24 (Wiggins, J., concurring).
Opinions cited by J. Wiggins include City of Chicago, Ill.
v. StubHub!, Inc., 624 F.3d 363, 365, 366 (7th Cir. 2010)
(online broker could be liable for unpaid taxes on sales of
tickets listed by users because liability did not depend
on who “‘publishes’ any information or is a ‘speaker’”
unlike claims “for defamation, obscenity, or copyright
infringement.”), and Fair Hous. Council of San Fernando
Valley v. Roommates.com, LLC, 521 F.3d 1157, 1164 (9th
Cir. 2008) (“‘The Communications Decency Act was not
meant to create a lawless no-man’s-land on the Internet.’”).
¶47 We note that our interpretation of the Act does
not deprive it of value to defendants in tort cases, but

66a
Appendix B
instead provides concrete, if narrow, immunity. For
example, websites cannot be held liable under the Act
merely because they allow the posting of third-party
defamatory comments, because that would treat the
websites as the publishers or speakers of the comments.
See Internet Brands, Inc., 824 F.3d at 851 (defamation
provides a “clear illustration” of the intent of the shallnot-be-treated clause).
¶48 It follows from what we have said that we do not
consider persuasive case law, cited by Armslist, that has
interpreted the Act in arguably analogous situations to this
case to confer immunity based on “publishing” activities
of website operators. 8 We believe that the cases cited by
Armslist are effectively reading into the Act language that
is not present, to the effect that the Act provides general
immunity for all activities that consist of designing or
operating a website that includes content from others.
See, e.g., Jane Doe No. 1 v. Backpage.com, LLC, 817
F.3d 12, 18 (1st Cir. 2016) (Act conferred immunity on
Backpage.com against liability for sex trafficking-related
claims, because the allegations relied on the website’s
actions as designer and operator of a website providing a
forum for publishing information content posted by third
parties, rather than as an information content provider
itself or as an encourager of prohibited activity); Herrick
v. Grindr, LLC, 306 F. Supp. 3d. 579, 2018 U.S. Dist.
8. Armslist incorrectly asserts that the circuit court’s ruling
here was consistent with “virtually every court in the United States.”
Having said that, we recognize that there is divided authority on
how to interpret the pertinent language of the Act, which addresses
activities in the context of relatively new and evolving technologies.

67a
Appendix B
LEXIS 12346, 2018 WL 566457, at *5 (S.D.N.Y. Jan. 25,
2018) (Act conferred immunity on interactive computer
service because it “may not be held liable for so-called
‘neutral assistance,’ [which involves providing] tools and
functionality that are available equally to bad actors”;
explaining that design and “[c]ategorization features,”
such as a drop-down menu, “constitute quintessential
‘neutral assistance.’”) (quoted sources omitted).
¶49 Some such courts have interpreted the Act to
provide immunity for each activity of website creators or
operators that could be characterized as being one of “a
publisher’s traditional editorial functions.” See Zeran v.
America Online, Inc., 129 F.3d 327, 330-31 (4th Cir. 1997);
see also Backpage.com, 817 F.3d at 21. This is sometimes
stated in terms of immunity for activity involving mere
“neutral means” of allowing users to post on websites, and
sometimes in terms of protection for “passive” conduct by
the website. See Klayman v. Zuckerberg, 753 F.3d 1354,
1358, 410 U.S. App. D.C. 187 (D.C. Cir. 2014) (interpreting
the Act to hold that “a website does not create or develop
content when it merely provides a neutral means by
which third parties can post information of their own
independent choosing online” and has immunity from
liability for providing this “neutral means”); Roommates.
com, 521 F.3d at 1173-74 (online marketplace provider “is
not responsible, in whole or in part, for the development
of ... content[ ] which comes entirely from subscribers and
is passively displayed by” the website).
¶50 Simply put, we are unable to tie these case-law
applications to the Act’s specific language and, for that
reason, do not find the cases Armslist relies on helpful.

68a
Appendix B
¶51 Moreover, the weakness of Armslist’s argument
is all the more glaring in light of the presumption against
preemption that we address at ¶¶32-33 supra. To repeat,
the Act uses the narrow terms we have addressed, while
the cases cited by Armslist effectively ignore the terms
of the Act. Instead, these opinions essentially collapse the
entire analysis into a broad and unsupported definition of
“publisher.” The Act does not, for example, provide lists
of website features that do or do not represent traditional
editorial functions, nor does it use the terms “neutral” or
“passive” or any similar terms. This leaves courts without
principled and consistent ways to define “traditional
editorial functions,” “neutral means,” or “passive display.”
We cannot lightly presume that Congress would intend
that the highly consequential immunity determination
could turn on how courts might choose to characterize
website features as being more or less like traditional
editorial functions, or more or less neutral or passive,
especially without reasonably specific statutory direction
or guidelines.
¶52 In sum, the Act, and in particular the shall-notbe-treated clause, does not immunize Armslist from
claims in the complaint because the claims and the
supporting allegations do not seek to hold Armslist liable
for publishing another’s information content. Instead, the
claims seek to hold Armslist liable for its own alleged
actions in designing and operating its website in ways
that caused injuries to Daniel.

69a
Appendix B
CONCLUSION
¶53 For all of these reasons, we conclude that the
circuit court erred in dismissing the negligence per
se claim and separately conclude that the Act does not
preempt state law to provide immunity to the defendants.
Accordingly, we reverse the circuit court order dismissing
the complaint against the Armslist defendants and remand
the cause.
By the Court.—Order reversed.
Recommended for publication in the official reports.

70a
C THE CIRCUIT
APPENDIX C —Appendix
ORDER OF
COURT OF THE STATE OF WISCONSIN
CIVIL DIVISION MILWAUKEE COUNTY
FILED NOVEMBER 28, 2016
STATE OF WISCONSIN, CIRCUIT COURT,
MILWAUKEE COUNTY
Case No. 2015-cv-8710
YASMEEN DANIEL, INDIVIDUALLY, AND AS
SPECIAL ADMINISTRATOR OF THE ESTATE OF
ZINA DANIEL HAUGHTON,
Plaintiffs,
v.
ARMSLIST, LLC, BRIAN MANCINI, BROC
ELMORE, JONATHAN GIBBON, DEVIN LINN,
ABC INS. CO., DEF INS. CO., ESTATE OF
RADCLIFFE HAUGHTON, BY HIS SPECIAL
ADMINISTRATOR JENNIFER F. VALENTI,
Defendants,
and
TRAVELERS INDEMNITY COMPANY
OF CONNECTICUT,
Intervening Plaintiff.

71a
Appendix C
ORDER ON THE NOVEMBER 1, 2016 HEARING
Defendant Devin Linn’s (“Linn”) motion to dismiss
as to the claim of negligence per se asserted by Plaintiffs
Yasmeen Daniel, individually and as Special Administrator
of the Estate of Zina Daniel Haughton (collectively,
“Plaintiffs”), Defendant Armslist, LLC’s (“Armslist”)
motion to dismiss as to the claims of negligence, negligence
per se, negligent infliction of emotional distress, civil
conspiracy, aiding and abetting tortious conduct, public
nuisance and wrongful death asserted by Plaintiffs,
and Defendants Brian Mancini’s and Jonathan Gibbon’s
(collectively, the “Individual Defendants”) motion to
dismiss as to the claims of negligence, negligence per se,
negligent infliction of emotional distress, civil conspiracy,
aiding and abetting tortious conduct, public nuisance,
wrongful death, and piercing the corporate veil asserted
by Plaintiffs, came to be heard before the Honorable Judge
Glenn H. Yamahiro on November 1, 2016.
Plaintiffs appeared by Attorneys Patrick O. Dunphy
of the law firm Cannon & Dunphy, S.C., Jonathan E. Lowy
of the Brady Center to Prevent Gun Violence Legal Action
Project, and Jacqueline C. Wolff and Samantha J. Katze
of the law firm Manatt, Phelps & Phillips, LLP. Armslist
and the Individual Defendants appeared by Attorneys
Michael D. McClintock of the law firm McAfee & Taft and
Eric J. Van Schyndle of the law firm Quarles & Brady LLP.
Linn appeared by Attorney Dillon Ambrose of the law
firm Davis & Kuelthau, S.C. And, Defendant the Estate of
Radcliffe Haughton appeared by Attorney Colette Reinke
of the law firm Fuchs & Boyle, S.C.

72a
Appendix C
IT IS SO ORDERED, for the reasons set forth on the
record on November 1, 2016, that the negligence per se
claim asserted by Plaintiffs is dismissed as to Linn with
prejudice and without costs; and that all claims asserted by
Plaintiffs against Armslist, Brian Mancini and Jonathan
Gibbon are dismissed with prejudice and without costs.
IT IS SO ORDERED that this is a final order for
purposes of appeal.
Dated this
			

day of

, 2016.

The Honorable Glenn H. Yamahiro

Dated this 28th day of November, 2016
BY THE COURT:
Electronically signed by
Glenn H Yamahiro-34, Judge
Glenn H Yamahiro-34, Judge

73a
Appendix HEARING
D
APPENDIX D — MOTION
OF THE
COURT OF APPEALS OF WISCONSIN
DATED NOVEMBER 1, 2016
[1]STATE OF WISCONSIN, CIRCUIT COURT,
BRANCH 34, MILWAUKEE COUNTY
Case No. 15-CV-8710
YASMEEN DANIEL, INDIVIDUALLY, AND AS
SPECIAL ADMINISTRATOR OF THE ESTATE OF
ZINA DANIEL HAUGHTON,
Plaintiffs,
v.
ARMSLIST, LLC, BRIAN MANCINI, BROC
ELMORE, JONATHAN GIBBON, DEVIN LINN,
ABC INS. CO., DEF INS. CO., ESTATE OF
RADCLIFFE HAUGHTON, BY HIS SPECIAL
ADMINISTRATOR JENNIFER F. VALENTI,
Defendants,
and
TRAVELERS INDEMNITY COMPANY
OF CONNECTICUT,
Intervening Plaintiff.

74a
Appendix D
MOTION HEARING
HONORABLE GLENN H. YAMAHIRO
Circuit Judge, Presiding
[3]TRANSCRIPT OF PROCEEDINGS
THE CLERK: 15-CV-8710, Yasmeen Daniel versus
ARMSLIST, LLC. Appearances.
MR. DUNPHY: Your Honor, the plaintiffs are
appearing by Patrick Dunphy, John Lowy, Jacqueline
Wolff, and Samantha Katze.
The bulk of the argument on plaintiff’s side this
morning will be done by Mr. Lowy and may be augmented
by Ms. Katze depending on the questions the Court may
have.
THE COURT: Okay.
MR. McCLINTOCK: Good morning, Michael
McClintock, firm of McAfee & Taft, on behalf of defendants
ARMSLIST, LLC, Brian Mancini, Jonathan Gibbon and
Broc Elmore. Also with me is Eric Van Schyndle from
Quarles and Brady.
MS. REINKE: Colette Reinke, the law firm of Fuchs
and Boyle. I’m here on behalf of John Fuchs and the Estate
of Radcliffe Haughton.
MR. AMBROSE: Dillon Ambrose of the law firm of
Davis & Kuelthau on behalf of Defendant Devin Linn.

75a
Appendix D
THE COURT: Good morning. Times Square, right?
Was just there last month. I can’t fathom trying to get in
and out of there to go to work every [4]day. Anybody else
from out of town?
MR. McCLINTOCK: I am, Your Honor.
THE COURT: Where are you from?
MR. McCLINTOCK: From Oklahoma.
THE COURT: Okay. I anticipate that there are some
that would like to supplement the record orally based
on Mr. Dunphy’s statement. I don’t have any specific
questions at this time, but I will afford an opportunity
for anybody that wants to orally supplement the record
starting with the moving party.
I’ll just ask you to, whoever is speaking, to make sure
the microphone is in front of you so the court reporter can
get everything.
MR. McCLINTOCK: Thank you, Your Honor, may it
please the Court, it is our motion.
As I said, I represent ARMSLIST, LLC, and the
individual owners. Of note, for the record, discovery
-- jurisdictional discovery is granted by the Court
and conducted by the parties. As a result of that, the
defendant, Broc Elmore, was voluntarily dismissed; and
so for a matter of housekeeping and to just make sure the
court record is clear and the Court is aware, if it wasn’t

76a
Appendix D
otherwise in the filings, Mr. Elmore has been dismissed
-- voluntarily dismissed from the case.
***
[43]and they said specifically that Congress did not
intend to protect websites such as ARMSLIST with
allegations such as these; and again, those allegations are
focused not on Mr. Linn’s posting but on this prohibited
purchaser’s access. Thank you.
THE COURT: Okay. Thank you. While any failures
on the part of the Court here will not be based upon the
lack of input or the quality of the briefing that’s been done
here, which was very, very good.
I think the facts of the situation, I believe the
next couple days we are approaching the unfortunate
anniversary of the deceased in this case; and the
Court certainly, and I think the parties agree, is not
unsympathetic to the deceased, family of the deceased.
The issues of domestic violence, not only in this case
but throughout the country, and the interplay between
firearms and the killing of victims of domestic violence,
which is a long standing and continuing problem,
which despite many people’s best efforts have yet to be
effectively addressed. The Court is not unfamiliar with
those dynamics having been a long-term faculty member
of the National Judicial Institute of Domestic Violence
teaching [44]judges across the country as to the dynamics
of domestic violence as well as it’s lethality.

77a
Appendix D
The Court is also not unfamiliar as a person that
reads the news as to the issues regarding firearms in this
country and firearm violence, and the conflict between
those who support the Second Amendment, and in the
context of this case, the First Amendment, and those
that would like to see some reasonable parameters put
upon the sales and distribution of firearms, especially as
it relates to those persons who really are legally ineligible
to possess them.
And probably the ultimate tragedy here is that, based
upon the state of the law, as people were on notice prior
to Ms. Zina Haughton’s murder, but basically the same
thing occurred under similar circumstances in 2011.
I think it’s almost a certainty this will not be the last.
And to that extent, it’s a tragedy of the extent that Ms.
Haughton’s death may be in vain based upon the history
of the legislative branch in addressing or not addressing
the issues that are brought to bear based upon the facts
of this case.
I will begin by addressing the negligence per se claim.
I think the facts here are not really in [45]dispute.
The case arises out of Mr. Haughton’s purchase of a
firearm by the ARMSLIST or with the assistance of the
ARMSLIST.com website that he was, in fact, subject to
a domestic violence restraining order when he used the
website to locate a private seller, in this case Mr. Linn,
who ultimately sold him the firearm.
The gun was a semi-automatic handgun, three high
capacity magazines, for $500.

78a
Appendix D
Based on the pleadings, it appears that Mr. Linn did
not question Mr. Haughton as to his need for the firearm
or attempt to engage in any formal or informal background
check to ascertain whether or not this buyer would be
legally ineligible. There’s no allegation, I believe, that Mr.
Linn searched CCAP; and it was the following day that
Mr. Haughton went to the Azana Spa and Salon and killed
Ms. Haughton and two of her co-workers.
And I think it’s clear that Ms. Daniel was also affected
by the trauma of these killings, and so she also has claims
before the Court.
The legal standard on a motion to dismiss is to test
the legal sufficiency of the complaint. Under Evans versus
Cameron at 212 Wis. 2d 421. On the [46]context of this
motion, although to a certain extent it’s a hybrid, there have
been facts interwoven with these briefs that almost make
this a hybrid between a motion to dismiss and summary
judgment. But the Court is treating this as a motion to
dismiss. And in that context, well-pleaded facts are accepted
as true. Legal conclusions alone stated in the complaint are
not accepted as true, and they are insufficient to enable a
complaint to withstand a motion to dismiss under Data Key
Partners versus Permira Advisors, LLC, 356 Wis. 2d 665.
In 2014, the Wisconsin Supreme Court adopted the
plausibility pleading standard set forth in Bell Atlantic
Corporation versus Twombly at 550 U.S. 544 and Data
Key Partners at 2014 Wis. 86. That standard requires
plaintiffs to allege facts that suggest more than a
possibility of a claim as a threshold requirement under
Wisconsin Statute 802.02 sub (1) sub (a).

79a
Appendix D
To satisfy the statute, a complaint must plead facts,
which if true, would entitle the plaintiff to relief. Bare legal
conclusions set out in the complaint provide no assistance
in warding off a motion to dismiss, and plaintiffs must
allege facts that, if true, plausibly suggest a violation of
[47]applicable law.
Under the Twombly plausibility pleading standard,
a claim has facial plausibility when the plaintiff pleads
factual content that allows the Court to draw the
reasonable inference that the defendant is liable for the
misconduct alleged. Under Ashcroft versus Iqbal, 556 U.S.
662. At this point there is little other guidance as to what
plausibility means in Wisconsin.
In terms of the negligence per se claim, plaintiff has
alleged that Mr. Linn violated, quote, violated federal,
state and local statutes, regulations and ordinances,
including without limitation 18 U.S.C. sub (2) 18 U.S.C.
-- I should say Section 2. 18 U.S.C. Section 922 sub (g) and
Wisconsin Statute 941.20 sub (1).
The above statutes impose criminal liability but are
silent on whether civil liability should also attach.
Plaintiffs also attempt to argue violation of 18 U.S.C.
Section 922 sub (d) sub (8). Although the complaints fails
to identify Linn as an aider and abettor.
Regardless of this failure, none of the statutes cited
by the plaintiffs provide a clear,

80a
Appendix D
***
[53]suitability of the federal criminal and regulatory
standard for use as a reasonable person standard in
negligence cases.
The Olson court analyzed the statutory enforcement
mechanisms and found that, quote, no reference to the
imposition of civil liability for violation of the criminal
standards set forth by the Act appears in the legislative
history, at page 250.
The Court held, and this Court is bound to accept, the
violations of 18 U.S.C. Section 922 are not negligence per
se. The Supreme Court was presented with an opportunity
to review the Olson decision, but the Court declined to
hear the case.
Therefore, because the holdings -- the Court finds that
the holding of Olson is still good law and binding on the
Court. The Court finds the plaintiff’s negligence per se
claimed against Mr. Linn fails as a matter of law.
As to the broader range of claims, ARMSLIST, LLC
formed in 2007 to be a, quote, firearms marketplace. Other
private sale websites, including Amazon, Ebay, Craigslist,
and others, no longer sell firearms.
ARMSLIST does not require users to register in
order to post on its website.
[54]The website has a number of features that enable
a user to filter out vendors. ARMSLIST does a party --

81a
Appendix D
ARMSLIST directs users to contact their local sheriff’s
office and/or ATF Branch if they have questions about
safe and legal gun transfers.
Yasmeen Daniel brought multiple claims against
ARMSLIST, LLC, it’s members, and Mr. Linn. Her claims
against ARMSLIST, LLC and its members, Mr. Mancini,
Mr. Gibbon are the subjects of the motion to dismiss.
The defendants advance a number of grounds in
support of their motion to dismiss.
First, they assert the Communications Decency Act,
referred to as the CDA, precludes all the plaintiff’s claims
because such claims attempt to hold the defendants liable
for materials posted by third parties. Alternatively, they
have argued the plaintiff’s negligence claims must fail
because ARMSLIST did not have a special relationship
as that term is understood in the law with Ms. Haughton.
ARMSLIST defendants have asserted that the CDA
at Section 230 sub (c) prevents all the plaintiff’s claims.
The applicability of the CDA is essentially an argument
that plaintiff’s claims are precluded by federal statute.
[55]Defendants have made their motion under Section
802.06 sub (2) sub (a) sub 6, which is failure to state a claim
upon which relief can be granted. A codification of federal
rule 12 (b) (6). The CDA is an affirmative defense which
does not justify dismissal under Rule 12 (b) (6), under Doe
versus GTE Corporation, 347 F. 3d 655, and plaintiff has
referenced the inappropriate forum of defendant’s motion
in the footnote.

82a
Appendix D
After the footnote, plaintiff has argued the applicability
of the CDA. The defendant may raise the affirmative
defense of claim preclusion either by motion before filing
the answer or as an affirmative defense in the answer
under 802.06 sub (2) of the Wisconsin Statutes.
Here the defendants have filed their motion before
filing the answer, and the motion to dismiss on statutory
grounds should be supported by the applicable statute
under which the claim preclusion defense is based, and that
brings us to what the Court has referenced with regard
to this being a little bit of a hybrid between a motion to
dismiss and summary judgment.
Certainly, there has been more than adequate briefing
as to the substantive issues before the [56]Court. Judgment
shall be rendered if the pleadings, depositions, answers
to interrogatories, and admissions on file, together with
the affidavits, if any, show there’s no genuine issue as to
any material fact pertinent to whether the plaintiff can
recover under the applicable law under 802.08 sub (2).
In this case, the original motion was filed in March
of 2016. I believe that was followed by the interlude at
federal court before that matter was returned to this
court. Nevertheless, there has been a reasonable amount
of time to produce any relevant material pertinent to this
Court’s determination on the motion.
So to that extent, it’s treated as a motion for summary
judgment.

83a
Appendix D
Although perhaps not as absolute as the defendant has
argued, the Court does believe that the CDA preempts
civil liability in this case. It provides under sub (1),
treatment of publisher or speaker. No provider or user
of an interactive computer device shall be treated as
the publisher or speaker of any information provided by
another information content provider.
And under sub (2), civil liability. No provider or
user of an interactive computer service [57]shall be held
liable on account of, A, any action voluntarily taken in
good faith to restrict access to or availability of material
that the provider or user considers to be obscene, lewd,
lascivious, filthy, excessively violent, harassing, or
otherwise objectionable, whether or not such material is
constitutionally protected; or, B, any action taken to enable
or make available to information content providers or
others the technical means to restrict access to materials
described in paragraph (1).
The CDA is not a general prohibition of civil liability
for website operators. Under Chicago Lawyers Committee
for Civil Rights Under the Law, Incorporated versus
Craigslist, Incorporated, at 519 F. 3d 666. Instead, the
CDA provides a safety net to a web host that does filter
out offensive material by proclaiming that such provider
is not liable to the censored consumer. The 7th Circuit
noted CDA plays a limited role, using as an example that,
in quote, information content provider may be liable for
contributory infringement if their system is designed to
help people steal music or other material in copyright.
At page 670.

84a
Appendix D
And in this case, the Court believes that ARMSLIST
has taken a passive approach to monitoring [58]content
where the users may not flag material if the user believes
the post is for illegal gun sale. In addition, ARMSLIST
mandates the users accept its terms of service, which
include one provision declaring that the user will not use
the site illegally. Further, the terms of service explicitly
tell users that ARMSLIST will not investigate or monitor
postings or sales to insure compliance with local laws.
It’s really based on the website design that the plaintiff
has alleged negligence, negligent infliction of emotional
distress, public nuisance, wrongful death, and aiding and
abetting of tortious conduct; and, obviously, plaintiff has
also brought the alter ego and civil conspiracy claims.
The CDA declares that an online information system
may not be treated as a publisher or speaker of information
or postings by a third party. This immunity only applies,
quote, if the interactive computer service provider is not
also an information content provider, which is defined as
someone who is responsible in whole or in part with the
creation or development of the offending content under
the Fair Housing Council of San Fernando Valley case
at 521 F.3d at page 1162.
Based on that, the Court believes this case [59]turns
on whether ARMSLIST merely hosts advertisements,
in which case they are protected by CDA immunity,
or whether they also help develop the content of those
advertisements, in which case they are not protected by
CDA immunity.

85a
Appendix D
A website operator can be both a service provider and
a content provider: If it passively displays content that is
created entirely by third parties, then it is only a service
provider with respect to that content. But as to content
that it creates itself, or is responsible in whole or in part
for creating or developing, the website is also a content
provider. Thus, a website may be immune from civil
liability for some of the content it displays to the public
but be subject to liability for other content.
Again, under the Fair Housing Council case versus
Roommates.com, 521 F. 3d 1157. A website operator,
however, does not develop content by simply maintaining
neutral policies prohibiting or eliminating certain content.
Under Dart versus Craigslist, 665 F.Supp 2d 961.
Viewing the plaintiff’s allegations in the light most
favorable to her, plaintiff has alleged that ARMSLIST’s
design induces buyers and sellers to [60]engage in conduct
contrary to state and federal law. As a service provider,
ARMSLIST is an intermediary and indifferent to the
content of ads made by third parties under Doe versus
GTE Corporation, 347 F. 3d 655.
Certainly, the Court appreciates plaintiff’s arguments
that ARMSLIST is inherently engaged in dangerous
business with foreseeable injuries. The plaintiff fails to
allege facts which establish or dispute that ARMSLIST
is materially engaged in creating or developing the illegal
content on its page. The 7th Circuit has articulated
ARMSLIST’s services and subsequent potential for
liability as follows:

86a
Appendix D
That web hosting services likewise may be used to
carry out illegal activities does not justify condemning
their provision whenever a given customer turns out to
be crooked. The user did not demand a quantity or type
of service that is specialized to unlawful activities, nor
do plaintiffs allege that the bandwidth or other services
required were themselves tip offs so that the web host,
like the seller of sugar to a bootlegger, must have known
that the customer had no legitimate use for the service.
Just as the telephone company is not liable as an aider and
[61]abettor for tapes or narcotics sold by phone, and the
Postal Service is not liable for tapes sold and delivered
by mail, so a web host cannot be classified as an aider and
abettor of criminal activities conducted through access to
the Internet. Under Doe versus GTE Corporation.
In this case, as it stands right now and at the time of
the tragedies that are subject to this lawsuit, ARMSLIST
does provide a lawful service. Plaintiff has alleged that
the ability to filter ads so that only private sellers can be
seen is an inducement for prohibited purchasers.
The Court believes that the language in Doe versus
GTE Corporation disposes of that argument. Why?
Because intrastate private sales of firearms are lawful.
Plaintiff has not alleged that anything was inherently
unlawful about Mr. Linn or Mr. Haughton’s posts.
Plaintiff’s allegations in the complaint seek to hold
ARMSLIST liable for creating a space where consumers
can post advertisements and also failing to police or edit
those postings for illegal activity.

87a
Appendix D
These claims appear on their face to be an attempt to
artfully plead ARMSLIST is a publisher without actually
calling it that; and, obviously, treating an Internet service
provider as a publisher [62]is expressly barred by the
CDA.
In the Chicago Lawyers case, the plaintiffs tried to
argue Craigslist could be liable as the one who caused
to be made printed or published any illegal notice,
statement or advertisement. Such an argument is similar
to plaintiff’s argument here that ARMSLIST effectively
caused prohibited purchasers to use the website to obtain
firearms.
The 7th Circuit found that, quote, nothing in the
service Craigslist offers induces anyone to post any
particular listing or express a preference for illegal
conduct, at page 671.
Given this finding, the Court stated that a plaintiff,
quote, cannot sue the messenger just because the message
deals with third party’s plan to engage in unlawful
discrimination, close quote, at page 672. The Court
believes the facts in this case are similar to those in the
Chicago Lawyers case.
Plaintiff has alleged that ARMSLIST induces illegal
and unsafe transfers by providing no means to report
illegal or unsafe postings, refusing to make users register
so that either a cooling off period or background check can
be completed and allowing users to limit their search to
private individuals as opposed to licensed dealers.

88a
Appendix D
[63]Plaintiffs imply that ARMSLIST is really a gun
show doing on line what it could not do lawfully off line.
However, unlike the case in the Fair Housing Council
case, the tools provided by ARMSLIST have a neutral
and legal purpose. Roommates.com was found to be
exempt from the immunity granted by the CDA because
the website required users to enter their race, sex, sexual
orientation and preferred characteristics of any potential
roommate in order to even utilize the site. The Court found
that content, mandated and provided by the website, only
had an improper purpose, which was to provide a basis
for people to discriminate in housing.
In this case, wanting to buy a firearm from a private
seller as opposed to a dealer does have a lawful purpose
because intrastate private sales without a waiting period
or background are lawful in Wisconsin. This Court is
unable to find that ARMSLIST materially participates
in development or content of its advertisements. As such,
the Court believes ARMSLIST is entitled to immunity
under the CDA Section 230 sub (c).
Defendants have argued the First Circuit’s reasoning
in Jane Doe No. 1 versus Backpages.com, LLC 817 F. 3d
page 12 is applicable to this case, and the [64]Court agrees.
In 2010, the Backpage.com competitor, Craigslist,
closed its adult advertising section due to concerns
about sex trafficking. Seeing an opportunity, Backpages
expanded its marketing footprint in the adult advertising
arena; and appellants in Jane Doe No. 1 asserted
Backpages designed its website to make sex trafficking
easier.

89a
Appendix D
Specifically, the appellants argued Backpages’,
quote, rules and processes governing the content of
advertisements were designed to encourage illegal
activity. In addition, Backpages did not require users to
register or verify their contact information.
These are the same, if not substantially similar,
allegations to what we have before us today. Plaintiffs
allege that ARMSLIST fills a void left by other online
retailers, including Ebay, Craigslist, Amazon, who refuse
to facilitate the sale of firearms. Plaintiff also cites
ARMSLIST’s failure to require users to register or verify
that they are aware of gun laws, and also the company’s
failure to review postings for legality or unsafe conditions.
The appellants in Jane Doe No. 1 also attempted to
frame their claims against the web host [65]as claims
regarding a design and operation of the website as
opposed to a publisher or speaker.
The First Circuit provided the following response to
that:
Without exception, the appellants’ well-pleaded claims
address the structure and operation of the Backpage
website; that is, Backpages decision about how to treat
postings. Those claims challenge features that are part
and parcel of the overall design and operation of the
website, such as the lack of phone number verification, the
rules about whether a person may post after attempting to
enter a forbidden term, and the procedure for uploading
photographs. Features such as these, which reflect choices

90a
Appendix D
about what content can appear on the website and in what
form, are editorial choices that fall within the purview of
traditional publisher functions. The Court believes the
same is true here.
Without exception, the plaintiff’s claims all incorporate
the structure and operation of ARMSLIST as the cause of
Mr. Haughton’s access to a firearm. These claims assert
that the features of ARMSLIST, such as the ability to
search for private sales, and lack of user registration,
are negligent. These features reflect choices about what
content can appear [66]on the website and in what form,
and are editorial choices that fall within the purview of
traditional publisher functions.
So even though the Court finds that the CDA does
preclude plaintiff’s claims, the Court is clearly aware of the
dangers posed by a website like ARMSLIST. Obviously,
steps could be taken to make the weapons traceable, the
sales traceable. Obviously, there’s been a lot of discussion
in a number of cases about the concept of policing websites,
which in many cases is almost impossible based on the
volume of postings and the number of employees that
typically work at most of these sites. But again, certainly
the legislature could require more than what it currently
does.
And naive as it may be, there is always the possibility
of actors deciding that they want to do what is morally
correct. God forbid to raise that in a courtroom. But I
don’t think it’s only based upon liability that almost every
other website that engages in sales of just about anything

91a
Appendix D
has decided to bail out of weapon sales. Because certainly
there would be grounds, as there are in this case, for Ebay,
Craigslist, or anybody else, to take refuge behind the CDA
and continue to sell firearms.
[67]So the Court is certainly not unsympathetic to the
claims and the uphill battle of the plaintiffs in this case
given the current legislative or statutory landscape as it
relates to the CDA and what is, I think, well-documented
impotence on the part of legislative branch at this time to
take any reasonable measures to police the distribution
of firearms, and in particular the private sale of firearms,
which continue to lawfully allow people to circumvent any
meaningful background checking of those who might be
statutorily ineligible to possess a firearm.
Ba sed on t he st at ement s of t he Cou r t a nd
notwithstanding the Court’s personal views, the Court
is granting ARMSLIST’s motions; and those will include
motions under the negligence claim based upon the Court’s
previous statements that it attempts to treat ARMSLIST
and its member owners as publisher and speaker under the
CDA, and the Court finds that ARMSLIST, at least under
the laws of passive web host that does not participate in
whole or part in the creation of its content, and the fact
that the design features of the website can serve a legal
purpose.
The Court finds that the appropriate negligence
standard are moot given this Court’s interpretation of
the CDA. The Court also has [68]previously ruled and
extends the ruling regarding negligence per se to all

92a
Appendix D
plaintiffs based on the fact the Court finds Olson versus
Ratzel controlling, and so the negligence per se claims
will be ordered dismissed as to all parties.
The Court finds the negligence infliction of emotional
distress claim, that again inherent in the claim, is a
design of the website, and the allegation ARMSLIST
had a duty to employ sufficient questioning and screening
of customers, as well as design a website that complied
with existing laws, as set forth in paragraph 154 of the
complaint, claiming ARMSLIST had a duty to screen
users attempts to treat ARMSLIST as a publisher of
content. In the Court’s opinion, users and their posts
are not directed by ARMSLIST, and ARMSLIST does
not mandate responses or information which is unlawful.
The CDA bars such treatment under Fair Housing
Council of San Fernando Valley versus Roommates and
really, I think, the distinction between that case and the
Chicago Lawyers case and this case, draw significant and
dispositive lines as to when a website crosses a line into
publishing and speaking.
The civil conspiracy. I think the defendant -- plaintiff’s
claim under that part of the complaint is that Mr. Mancini
and Mr. Olson (sic) [69]conspired to create a website to
serve the illegal gun market. In Wisconsin, civil conspiracy
has been defined as a combination of two or more persons
by some concerted action to accomplish some unlawful
purpose or to accomplish by unlawful means some purpose
not in itself unlawful. Under Mendelson versus Blatz
Brewing Company, 9 Wis. 2d 487.

93a
Appendix D
In this case, plaintiffs have alleged that the defendant
conspired to circumvent federal gun laws through
ARMSLIST.com. The law of civil conspiracy is further
characterized under Singer versus Singer, 245 Wis. 2d
191.
As quote, it is established law of this state that
there is no such thing as a civil act for conspiracy. There
is an action for damages caused by acts pursuant to a
conspiracy but none for the conspiracy alone. In a civil
action for damages for an executed conspiracy, the gist
of the action is the damages.
In this case, plaintiff has alleged damages insofar as
defendant’s civil conspiracy resulted in the death of Ms.
Haughton.
Court finds the plaintiff’s civil conspiracy claim is also
barred by the CDA. The 7th Circuit has found that where,
quote, nothing in the service [70]offered induces anyone
to post any particular listing or express a preference for
illegal conduct. The service provider is protected by the
CDA under the Chicago Lawyers case.
Given this finding, the Court stated a plaintiff cannot
sue the messenger just because the message reveals a
third-party’s plan to engage in unlawful discrimination.
The plaintiff ’s civil conspiracy claim attempts to
accomplish the goal disallowed by the Chicago lawyers
case. ARMSLIST’s service has a legal purpose, and the
content provided by ARMSLIST is neutral and does
not suggest or require illegal content. ARMSLIST and

94a
Appendix D
its individual members cannot be liable for conduct and
content posted by third parties. Such liability would
require the Court to treat ARMSLIST and its members as
speakers or publishers of the content. Because plaintiff’s
civil conspiracy claim attempts to treat ARMSLIST as
a publisher of the illegal content in ARMSLIST.com, the
CDA bars liability.
In addition, the Jane Doe No. 1 case that’s been
referenced also supports a finding that the civil conspiracy
claim is barred by the CDA. The civil conspiracy complaint
addresses the, quote, structure and operation of the
service provider’s website. [71]Individual owners are
entitled to protection under the CDA unless they have
been personally involved in or responsible for the website’s
illegal conduct. Under Klayman versus Zuckerberg, 753
F. 3d 1354.
Here nothing in the complaint alleges that Mr. Mancini
or Mr. Gibbon were personally involved in illegal conduct.
Instead the complaint alleges the owners designed the
website to induce illegal conduct, which is a publishing
function under cases like the Fair Housing Council and
Jane Doe No. 1.
Absent allegations or facts demonstrating that either
member was materially involved in illegal sale or posting,
the CDA bars liability. Based on that, the Court finds that
the civil conspiracy claim is barred by the CDA.
Plaintiff’s claim with regard to abetting -- aiding and
abetting tortious conduct, the Court also finds it is barred

95a
Appendix D
by the CDA. Plaintiff’s claim that ARMSLIST, quote,
aided, encouraged, urged and acquiesced in Mr. Linn’s sale
to Mr. Haughton. This claim attempts to treat ARMSLIST
as the speaker and publisher of the advertisement made
by Mr. Linn. The claim further states that ARMSLIST,
quote, brokered the transaction between a dangerous,
prohibited purchaser and Linn. However, such claims
again treat [72]ARMSLIST as the speaker and publisher
of content. ARMSLIST did not participate in the sales or
advertisements beyond creating a forum for the posting.
Because plaintiff’s aiding and abetting claim is based
on ARMSLIST’s failure to take affirmative steps to censor
its users or manage its content, the claim attempts to
hold ARMSLIST liable as a publisher and is precluded
by the CDA.
The Court believes that the public nuisance and
wrongful death claims are moot based upon the Court’s
ruling on negligence and the CDA. I don’t disagree with
the alter ego position taken by ARMSLIST in this case.
But again, that requires a judgment before the piercing
claim before there’s grounds to pierce a corporate veil.
Court also believes the claim from Travelers for
repayment of worker’s compensation payments is moot as
related to ARMSLIST, Mr. Mancini and Mr. Gibbon, given
the Court findings regarding negligence and the CDA.
As to personal jurisdiction, the Court is not making
any findings in that regard at this time because, as its
set forth, plaintiffs would be entitled to an evidentiary
hearing on that question.

96a
Appendix D
[73]So in summary, the Court has found the CDA bars
plaintiff’s claims against ARMSLIST as a matter of law.
Because the plaintiff’s claims seek to treat ARMSLIST
and it’s members as a publisher of web content, I will ask
plaintiffs for -- ARMSLIST to file orders under the fiveday rule. Is there anything further at this time?
MR. McCLINTOCK: Nothing further, Your Honor.
MR. LOWY: No, Your Honor.
MR. AMBROSE: No.
THE COURT: I know we have claims remaining,
especially as relates to Mr. Linn. I don’t know if parties
want some time to reflect, obtain transcript, make a
decision regarding appellate review.
I would propose scheduling a telephone status hearing
at a reasonable time interval, whether it’s 30, 45 days -can probably do 60 if that’s what everybody needs -- and
just to find out then just where everyone is at based upon
today’s hearing.
MR. DUNPHY: Your Honor, I’ll speak with counsel for
other parties and get back to the Court within the Court’s
guidelines for follow-up and telephone conference date.
THE COURT: Heads are in the affirmative.
MR. McCLINTOCK: Yes.
[74]MR. AMBROSE: Yes.

97a
Appendix D
MR. McCLINTOCK: We agree.
THE COURT: Is 30 days enough or you want some
more time?
MR. DUNPHY: I’d like to discuss it first with other
counsel to see. 30 days may well be enough. We may need 45.
THE COURT: We can work that out off the record, and
let the clerk know what works for you; and as I say, I think,
you’re welcome to come down. But I think it’s sufficient to
appear by telephone for that purpose. Thank you.
MR. LOWY: Thank you very much, Your Honor.
MR. AMBROSE: Thank you.
(Proceedings concluded)
***
[75]STATE OF WISCONSIN
MILWAUKEE COUNTY
I, Joanna Koepp, do hereby certify that I am a
Registered Professional Reporter, that as such I reported
the foregoing proceedings, later transcribed by me, and
that it is true and correct to the best of my abilities.
		
		

(Electronically signed by Joanna Koepp)
Joanna Koepp - Official Reporter.

98a
Appendix
APPENDIX
E — 47 E
USCA § 230

47 U.S.C.A. § 230
TITLE 47. TELECOMMUNICATIONS
CHAPTER 5. WIRE OR RADIO COMMUNICATION
SUBCHAPTER II. COMMON CARRIERS
PART I. COMMON CARRIER REGULATION
§ 230. PROTECTION FOR PRIVATE BLOCKING
AND SCREENING OF OFFENSIVE MATERIAL
Effective: April 11, 2018
Currentness
(a) Findings
The Congress finds the following:
(1) The rapidly developing array of Internet and other
interactive computer services available to individual
Americans represent an extraordinary advance in the
availability of educational and informational resources
to our citizens.
(2) These services offer users a great degree of control
over the information that they receive, as well as the
potential for even greater control in the future as
technology develops.
(3) The Internet and other interactive computer
ser vices offer a forum for a true diversity of
political discourse, unique opportunities for cultural

99a
Appendix E
development, and myriad avenues for intellectual
activity.
(4) The Internet and other interactive computer
services have flourished, to the benefit of all Americans,
with a minimum of government regulation.
(5) Increasingly Americans are relying on interactive
media for a variety of political, educational, cultural,
and entertainment services.
(b) Policy
It is the policy of the United States-(1) to promote the continued development of the
Internet and other interactive computer services and
other interactive media;
(2) to preserve the vibrant and competitive free
market that presently exists for the Internet and
other interactive computer services, unfettered by
Federal or State regulation;
(3) to encourage the development of technologies
which maximize user control over what information is
received by individuals, families, and schools who use
the Internet and other interactive computer services;
(4) to remove disincentives for the development and
utilization of blocking and filtering technologies that

100a
Appendix E
empower parents to restrict their children’s access to
objectionable or inappropriate online material; and
(5) to ensure vigorous enforcement of Federal criminal
laws to deter and punish trafficking in obscenity,
stalking, and harassment by means of computer.
(c) Protection for “Good Samaritan” blocking and
screening of offensive material
(1) Treatment of publisher or speaker
No provider or user of an interactive computer service
shall be treated as the publisher or speaker of any
information provided by another information content
provider.
(2) Civil liability
No provider or user of an interactive computer service
shall be held liable on account of-(A) any action voluntarily taken in good faith to
restrict access to or availability of material that
the provider or user considers to be obscene, lewd,
lascivious, filthy, excessively violent, harassing,
or otherwise objectionable, whether or not such
material is constitutionally protected; or
(B) any action taken to enable or make available
to information content providers or others the

101a
Appendix E
technical means to restrict access to material
described in paragraph (1)1
(d) Obligations of interactive computer service
A provider of interactive computer service shall, at
the time of entering an agreement with a customer for
the provision of interactive computer service and in
a manner deemed appropriate by the provider, notify
such customer that parental control protections (such
as computer hardware, software, or filtering services)
are commercially available that may assist the customer
in limiting access to material that is harmful to minors.
Such notice shall identify, or provide the customer with
access to information identifying, current providers of
such protections.
(e) Effect on other laws
(1) No effect on criminal law
Nothing in this section shall be construed to impair
the enforcement of section 223 or 231 of this title,
chapter 71 (relating to obscenity) or 110 (relating to
sexual exploitation of children) of title 18, or any other
Federal criminal statute.

1. So in original. Probably should be “subparagraph (A)”.
47 U.S.C.A. § 230, 47 USCA § 230
Current through P.L. 116-21.

102a
Appendix E
(2) No effect on intellectual property law
Nothing in this section shall be construed to limit or
expand any law pertaining to intellectual property.
(3) State law
Nothing in this section shall be construed to prevent
any State from enforcing any State law that is
consistent with this section. No cause of action may
be brought and no liability may be imposed under any
State or local law that is inconsistent with this section.
(4) No effect on communications privacy law
Nothing in this section shall be construed to limit the
application of the Electronic Communications Privacy
Act of 1986 or any of the amendments made by such
Act, or any similar State law.
(5) No effect on sex trafficking law
Nothing in this section (other than subsection (c)(2)
(A)) shall be construed to impair or limit-(A) any claim in a civil action brought under section
1595 of Title 18, if the conduct underlying the claim
constitutes a violation of section 1591 of that title;
(B) any charge in a criminal prosecution brought
under State law if the conduct underlying the

103a
Appendix E
charge would constitute a violation of section 1591
of Title 18; or
(C) any charge in a criminal prosecution brought
under State law if the conduct underlying the
charge would constitute a violation of section
2421A of Title 18, and promotion or facilitation of
prostitution is illegal in the jurisdiction where the
defendant’s promotion or facilitation of prostitution
was targeted.
(f) Definitions
As used in this section:
(1) Internet
The term “Internet” means the international
computer network of both Federal and non-Federal
interoperable packet switched data networks.
(2) Interactive computer service
The term “interactive computer service” means
any information service, system, or access software
provider that provides or enables computer access
by multiple users to a computer server, including
specifically a service or system that provides access
to the Internet and such systems operated or services
offered by libraries or educational institutions.

104a
Appendix E
(3) Information content provider
The term “information content provider” means any
person or entity that is responsible, in whole or in
part, for the creation or development of information
provided through the Internet or any other interactive
computer service.
(4) Access software provider
The term “access software provider” means a provider
of software (including client or server software), or
enabling tools that do any one or more of the following:
(A) filter, screen, allow, or disallow content;
(B) pick, choose, analyze, or digest content; or
(C) transmit, receive, display, forward, cache,
search, subset, organize, reorganize, or translate
content.
CREDIT(S)
(June 19, 1934, c. 652, Title II, § 230, as added Pub.L. 104104, Title V, § 509, Feb. 8, 1996, 110 Stat. 137; amended
Pub.L. 105-277, Div. C, Title XIV, § 1404(a), Oct. 21, 1998,
112 Stat. 2681-739; Pub.L. 115-164, § 4(a), Apr. 11, 2018,
132 Stat. 1254.)

